APPENDIX A
STATE OF WEST VIRGINIA
SUPREME COURT OF APPEALS
[DATE STAMP]
FILED
September 9, 2019
EDYTHE NASH GAISER, CLERK
SUPREME COURT OF APPEALS
OF WEST VIRGINIA
Pancho's LLC,
Plaintiff Below, Petitioner
vs)

No.17-1146 (Jackson County 13-C-98)

James T. Hughes, Margaret Ritchie,
Joyce Robinson, Terri Ranson,
James McCoy, Marsha Geyer,
Keith King, Judith Miller,
in their official and individual capacities
as members of the
Jackson County Board of Health,
Jonathan Graziani, Inspector for the
Jackson County Health Department, and
Susan Hosaflook, Administrator of the
Jackson County Health Department,
Defendants Below, Respondents

1a

MEMORANDUM DECISION
Petitioner Pancho's LLC, by counsel George R.
Higinbotham, Jr. and Forrest A. Bowen, appeals the
order of the Circuit Court of Jackson County, entered
on December 4, 2017, that denied petitioner's motion
for summary judgment and granted respondents'
motion for summary judgment. Respondents appear by
counsel Jeffrey W. Lilly.
This Court has considered the parties' briefs and
the record on appeal. The facts and legal arguments
are adequately presented, and the decisional process
would not be significantly aided by oral argument.
Upon consideration of the standard of review, the
briefs, and the record presented, the Court finds no
substantial question of law and no prejudicial error.
For these reasons, a memorandum decision affirming
the order of the circuit court is appropriate under Rule
21 of the Rules of Appellate Procedure.
Pancho's LLC ("Pancho's") is a restaurant in
Jackson County ("the county"). Respondent Jonathan
Graziani inspected Pancho's on behalf of Respondent
Jackson County Health Department ("the health
department") in April of 2011. He found numerous
violations of the 2005 Food Code ("the food code"), a
product of the federal Food and Drug Administration
that was adopted and enforced by the county. Mr.
Graziani ordered the restaurant immediately closed.
He returned to Pancho's the day after the closure,
found the conditions improved, and authorized the
restaurant's immediate reopening. Pancho's does not
2a

challenge the violations Mr. Graziani reported upon
inspection of the restaurant, or the resultant closure.
Pursuant to a policy enacted by the health
department in 2003, under which it forwarded its
health inspection scores to a local newspaper for
publication, the results of Mr. Graziani's inspection
were published on August 31, 2011, alongside the
scores of several other eateries. The paper made no
mention, however, of the restaurant's swift correction
or the follow-up inspection that led to the restaurant's
prompt reopening. Pancho's brought the omission of
this information to the health department's attention
in September of 2011, but there is no evidence that the
newspaper published a correction or otherwise
reported the restaurant's speedy remediation.
Pancho's filed the complaint initiating this
action in August of 2013. It asserted that respondents'
publication policy deprived it of prior notice and an
opportunity to be heard, thereby denying Pancho's the
right of due process. The parties conducted discovery
and filed dueling motions for summary judgment. The
circuit court entered an order denying petitioner's
motion and granting respondents' motion on December
4, 2017.
Pancho's assigns three errors, paraphrased
here. First, the restaurant argues that the circuit court
"failed to recognize" that a government "sanction"
threatening financial harm requires due process of
law. Second, it argues that the county's policy of
publication is neither grounded in nor permitted by
3a

law. Finally, Pancho's argues that the court erred in
failing to recognize "goodwill" as a proprietary interest,
because the food code guarantees due process. As is
customary in our consideration of a circuit court's
entry of summary judgment, we apply a de novo
standard of review. See Syl. Pt. 1, Painter v. Peavy, 192
W. Va. 189, 451 S.E.2d 755 (1994).
The first and third assignments of error assert
that the publication of the violations the restaurant
committed, with no accompanying explanation of the
quick correction, injured Pancho's. More specifically,
Pancho's asserts that it has articulated a
"constitutional tort" claim pursuant to 42 U.S.C. §
1983 based on the Fourteenth Amendment of the
United States Constitution.1
We have explained:
Title 42, U.S.C.A., § 1983
provides in pertinent part:
"Every person who, under
color of any statute,
ordinance, regulation,
custom, or usage, of any
State ... subjects, or causes
to be subjected, any citizen
of the United States ... to

1

Pancho's also asserts that its due process rights provided
by article III, section 10 of the West Virginia Constitution were
violated.

4a

the deprivation of any
rights, privileges, or
immunities secured by the
Constitution and laws, shall
be liable to the party
injured in an action at law."
This civil rights statute does not create
substantive rights, but merely provides a
claim for relief for rights elsewhere
secured. Thus, § 1983 claims must
specifically allege a violation of the
constitution or "laws" of the United
States. See Baker v. McCollan, 443 U.S.
137, 144 n. 3, 99 S. Ct. 2689, 2694, n. 3,
61 L.Ed.2d 433 (1979). In order to recover
damages under § 1983, a plaintiff must
show that (1) "the conduct complained of
was committed by a person acting under
color of state law; and (2) whether this
conduct deprived a person of rights,
privileges or immunities secured by the
Constitution or laws of the United
States." Parratt v. Taylor, 451 U.S. 527,
535, 101 S.Ct. 1908, 1913, 68 L.Ed.2d 420
(1981), overruled on other grounds,
Daniels v. Williams, 474 U.S. 327, 106
S.Ct. 662, 88 L.Ed.2d 662 (1986).
Hutchison v. City of Huntington, 198 W. Va. 139, 15152, 479 S.E.2d 649, 661-62 (1996) (emphasis in
original).

5a

Pancho's grounds its § 1983 claim in the due
process guarantee of the Fourteenth Amendment
which, so far as applicable to the questions here
considered, reads as follows: "nor shall any State
deprive any persons of life, liberty, or property,
without due process of law." Thus, only an interest in
a matter of life, liberty, or property invokes due
process considerations. See Board of Regents v. Roth,
408 U.S. 564, 569 (1972). Here, Pancho's claims a
liberty or property interest in reputation or goodwill.2
The Supreme Court of the United States
instructs that a claim cognizable under § 1983 in a
situation such as this--essentially, a charge that the
government defamed petitioner--would necessarily be
supported by one of the following premises:
The first is that the Due Process
Clause of the Fourteenth Amendment

2

Petitioner's argument generally refers to the denial of
due process, which it occasionally qualifies as procedural in
nature. We therefore address petitioner's arguments as if it has
specifically argued that it was denied procedural due process, but
note principles of substantive due process where relevant. The
substantive component of "the Due Process Clause specially
protects those fundamental rights and liberties which are,
objectively, 'deeply rooted in this Nation's history and tradition,'
and 'implicit in the concept of ordered liberty,' such that 'neither
liberty nor justice would exist if they were sacrificed."' Washington
v. Glucksberg, 521 U.S. 702, 720 (1997) (citations omitted).
"[S]ubstantive due process rights are created only by the
Constitution," unlike procedural due process rights, for which the
interest is derived from state law. Regents of Univ. of Mich. v.
Ewing, 474 U.S. 214, 229 (1985).

6a

and § 1983 make actionable many
wrongs inflicted by government
employees which had heretofore been
thought to give rise only to state-law tort
claims. The second premise is that the
infliction by state officials of a "stigma" to
one's reputation is somehow different in
kind from the infliction by the same
official of harm or injury to other
interests protected by state law, so that
an injury to reputation is actionable
under § 1983 and the Fourteenth
Amendment even if other such harms are
not.
Paul v. Davis, 424 U.S. 693, 699 (1976). The Supreme
Court found neither premise to be true, ultimately
holding "that the interest in reputation asserted in
this case is neither 'liberty' nor 'property' guaranteed
against state deprivation without due process of law."
Id. at 712. Prior to so holding, the Court noted that
Mr. Davis had asserted that his "right to privacy" was
violated, but that Mr. Davis did not assert a claim that
would create a substantive due process liberty interest.
The Court explained that the claim failed because it
was "based, not upon any challenge to the State's
ability to restrict his freedom of action in a sphere
contended to be 'private,' but on a claim that the State
may not publicize a record of an official act like an
arrest. None of our substantive privacy decisions hold
this or anything like this, and we decline to enlarge
them in this manner." Syl. Pt. 2, in part, id.

7a

Pancho's would distinguish its case from Paul
on the ground that Paul involved an application of
Kentucky law, and that local jurisprudence provides
rights that Kentucky does not. The Supreme Court
explained that "Kentucky law does not extend to
respondent any legal guarantee of present enjoyment
of reputation which has been altered as a result of
petitioners' actions." Id. at 711-12. Pancho's argues
that it finds itself in a different situation because the
following food code language imbues it with the right
to protection of its business goodwill:
It is imperative there be clearly
stated and legally sound rules that
include the criteria for compliance and
enforcement, the responsibilities of all
parties, sanctions for noncompliance, and
due process guarantees ....
The Regulatory Authority shall
justly apply remedies according to law
and this Code, to preserve the rights to
equal protection and due process of a
person to whom the remedies are applied.
The Supreme Court explained that "[t]o have a
property interest in a benefit, a person clearly must
have more than an abstract need or desire for it. He
must have more than a unilateral expectation of it. He
must, instead, have a legitimate claim of entitlement
to it." Roth, 408 U.S. at 577. The food code language
cited by Pancho's does not create an entitlement to
goodwill. Though it generally assures the just
8a

application of remedies according to law, it, like the
Kentucky jurisprudence discussed by the Paul Court,
offers no "legal guarantee of present enjoyment of
reputation .... " We therefore find the legal principles
indistinct from Paul, and find that the circuit court did
not err in this regard.
We turn our attention to the second assignment
of error asserted by Pancho's, wherein it argues that
there is no legal authority for publication, and further
argues--in a brief paragraph, but citing no legal
precedent--that the health department exceeded its
authority in engaging in publication because it did not
vet its publication "rule" through the process described
in the state Administrative Procedures Act. A "rule,"
according to West Virginia Code § 29A-1-2(j),
includes every rule, standard or
statement of policy or interpretation of
general application and future effect,
including the amendment or repeal of the
rule, affecting constitutional, statutory or
common law rights, privileges or
interests, or the procedures available to
the public, adopted by an agency to
implement, extend, apply, interpret or
make specific the law enforced or
administered by it or to govern its
organization or procedure, but does not
include rules relating solely to the
internal management of the agency, nor
rules of which notice is customarily given
to the public by markers or signs, nor
9a

mere instructions.
We find that the health department's practice of
disclosing its inspection results for publication does
not fall under the purview of this statute, and
therefore need not be addressed in the legislative rulemaking procedure, because it does not affect public
rights or the procedures available to the public. The
mere provision of information regarding health
inspections to the media, which is at liberty to publish
or decline to publish such information, does not
establish a policy subject to the Administrative
Procedures Act. As discussed above, Pancho's has
failed to establish that it enjoys constitutional
protections from the harms it asserts. Furthermore, in
the brief argument in support of this assignment of
error, Pancho's did not cite any statute or common law
precedent establishing those asserted rights. We
further find that there is no prohibition, in the food
code or otherwise, of the reporting of health
department inspection results.3 The circuit court did
not err on this basis.
For the foregoing reasons, we affirm.
Affirmed.

3

We emphasize that Pancho's did not challenge Mr.
Graziani's findings. We also note that "[e]very person has a right
to inspect or copy any public record of a public body in this state"
unless the record is specifically exempted. West Virginia Code §
29B-1-3(a), in part. Pancho's has not argued that the published
documents were exempt records.

10a

ISSUED: September 9, 2019
CONCURRED IN BY:
Chief Justice Elizabeth D. Walker
Justice Margaret L. Workman
Justice Tim Armstead
Justice Evan H. Jenkins
Justice John A. Hutchison

11a

APPENDIX B
IN THE CIRCUIT COURT OF JACKSON
COUNTY, WEST VIRGINIA
[DATE STAMP]
RECORDED
2017 DEC-4 PM 1:17
BRUCE W. DEWEES
JACKSON COUNTY
CIRCUIT CLERK
RIPLEY, WV 25271
PANCHO'S LLC,
Plaintiff.
v.

Civil Action No. 13-C-98
JUDGE LORA A. DYER

JAMES T. HUGHES, MARGARET RITCHIE,
JOYCE ROBINSON, TERRI RANSON,
JAMES MCCOY, MARSHA GEYER, KEITH KING,
JUDITH MILLER, in their official and individual
capacities as members of the JACKSON COUNTY
BOARD OF HEALTH, JONATHAN GRAZIANI,
Inspector for the JACKSON COUNTY HEALTH
DEPARTMENT, and SUSAN HOSAFLOOK,
Administrator of the JACKSON COUNTY
HEAL TH DEPARTMENT,
Defendants.

12a

ORDER DENYING PLAINTIFF'S MOTION
FOR SUMMARY JUDGMENT AND GRANTING
DEFENDANTS' MOTION FOR SUMMARY
JUDGMENT
On June 27, 2017, this matter came before the
Court for a hearing on the Defendants' Motion for
Summary Judgment ("Defendants' Motion") and the
Plaintiffs Cross-Motion for Summary Judgment
("Plaintiff's Motion"). The Plaintiff, Pancho's LLC
("Plaintiff" or "Pancho's"), a restaurant business,
appeared in person by member Todd Bowen, and by
counsel, George R. Higinbotham Jr., Esq., and Forrest
A. Bowen, Esq. Dr. James T. Hughes, Dr. I. John
Snyder, and Amy Haskins appeared in person on
behalf of both the individually named Defendants and
the Jackson County Board of Health ("the Board") and
the Jackson County Health Department (collectively,
"the Defendants"); Jeffery W. Lilly, Esq., appeared as
counsel for the same. The Court heard arguments
therein from counsel, for and against their respective
motions. After due consideration of the arguments, the
written submissions, and the record in the court file,
and a review of the pertinent law, the Court is of the
opinion that Plaintiff's Motion should be denied and
Defendants' Motion should be granted. Accordingly,
the Court hereby renders these findings of fact and
conclusions of law in support of its opinion:
I. FINDINGS OF FACT
A summary of the pertinent facts as alleged by
the Plaintiff and adopted by the Defendants for
13a

purposes of summary judgment in this case is as
follows:
On July 16, 2002, the current Chief Sanitarian
of the Jackson Count Health Department
recommended for approval by the Jackson County
Board of Health the Defendants' publication policy
("the Policy") that is challenged by the Plaintiff in this
civil action; the Board adopted the Policy, wherein the
results of health inspections of local food-serving
establishments would be published in the local
newspaper. On April 15, 2011, Jonathan Graziani, an
inspector for the Jackson County Health Department,
inspected the premises of Plaintiff's restaurant and
observed numerous food code violations. Mr. Graziani
temporarily closed Pancho's for the rest of the same
day and returned early the following morning to
complete a follow-up inspection. According to the Chief
Sanitarian, the improvement of the restaurant's
conditions was "dramatic," showing good faith by the
restaurant operator; Mr. Graziani approved the
immediate re-opening of Pancho's restaurant on that
same day, April 16, 2011.
On August 31, 2011, the April 2011 inspection
scores of various sit-down restaurants, nursing homes,
schools, bars, counter-service establishments, and
premises serving packaged food were published in the
local newspaper. When published, the inspection
scores were "lumped together as opposed to being
separated by the class of establishment being
inspected." Pl's. Mot 4. The August 2011 publication
listed only the April 15, 2011, routine inspection of
14a

Pancho's, which listed numerous violations of the Food
Code, but not the improved follow-up inspection from
April 16, 2011. No one at the Health Department was
aware of the alleged mistake in the newspaper
publication, that is, the failure to publish the follow-up
inspection scores from April 16, 2011.
On September 7, 2011, a representative of
Pancho's called the Health Department and reported
the omission of the April 16, 2011, follow-up scores
from the newspaper publication. On September 13,
2011, the Health Department attempted to notify the
newspaper of the corrections to be made to the
publication. The September 13, 2011 transmittal
document to the newspaper failed to mention the word
"correction" or the necessity of a correction. However,
on October 11, 2011, the Health Department took
steps to publish the correction and that transmittal to
the newspaper mentioned that the document was a
"correction." The April 16 follow-up inspection of
Pancho's did not appear on the Health Department's
web page until after this civil action was filed.
According to Pancho's, the claims in this civil
action challenge only the publication of the inspection
results and not the inspections themselves, the
inspection results, the inspection process, or any other
alleged wrongdoing by Defendants. See Pl's. Mot. 1-2.
II. CONCLUSIONS OF LAW
A. Summary Judgment Standard

15a

"A party against whom a claim, counterclaim, or
cross-claim is asserted or a declaratory judgment is
sought may, at any time, move with or without
supporting affidavits for a summary judgment in the
party's favor as to all or any part thereof." W. Va. R.
Civ. P. 56(b).
The judgment sought shall be rendered
forthwith if the pleadings, depositions,
answers to interrogatories, and
admissions on file, together with the
affidavits, if any, show that there is no
genuine issue as to any material fact and
that the moving party is entitled to a
judgment as a matter of law.
W. Va. R. Civ. P. 56(c) (emphasis added). Rule 56
additionally provides that:
[w]hen a motion for summary judgment is made ..., an
adverse party may not rest upon the mere allegations
or denials of the adverse party's pleading, but the
adverse party's response, by affidavits or as otherwise
provided in this rule, must set forth specific facts
showing that there is a genuine issue for trial.
W. Va. R. Civ. P. 56(e) (emphasis added).
"Rule 56 ... is 'designed to effect a prompt
disposition of controversies on their merits without
resort to a lengthy trial,' if there essentially 'is no real
dispute as to salient facts' or if it only involves a
question of law." Williams v. Precision Coil, Inc., 194
16a

W.Va. 52, 58, 459 S.E.2d 329, 335 (1995) (quoting
Painter v. Peavy, 192 W.Va. 189, 192 n. 5,451 S.E.2d
755, 758 n. 6 (1994)) (emphasis added). "The party
opposing summary judgment must satisfy the burden
of proof by offering more than a mere 'scintilla of
evidence' and must produce evidence sufficient for a
reasonable jury to find in a nonmoving party's favor ....
The evidence must contradict the showing of the
moving party by pointing to specific facts
demonstrating that, indeed, there is a 'trialworthy'
issue." Williams, 194 W. Va at 61, 459 S.E.2d at 338
(quoting Anderson v. Liberty Lobby, Inc., 477 U.S. 242,
106 S. Ct 2505 (1986)); see Chafin v. Gibson, 213 W.Va.
167, 174, 578 S.E.2d 361, 368 (2003) (A non-moving
party "cannot create a genuine issue of material fact
through a mere speculation or the building of one
inference upon another."); see also Dunn v. Watson,
211 W.Va. 418, 421, 566 S.E.2d 305, 308 (2002)
("[S]elf-serving assertions without factual support in
the record will not defeat a motion for summary
judgment.")
Any permissible inference from the underlying
facts must be drawn in the light most favorable to the
party opposing the motion. Williams, 194 W. Va. at 59,
459 S.E.2d at 336 (citing Matsushita Elec. Indus. Co.,
Ltd. V. Zenith Radio Corp., 475 U.S. 574, 106 S. Ct.
1348 (1986)). However, if the moving party can show
by affirmative evidence that there is no genuine issue
of material fact, the burden shifts to the nonmoving
party who must either (1) rehabilitate the evidence
attacked by the moving party, (2) produce additional
evidence showing the exist3ence of a genuine issue for
17a

trial, or (3) submit an affidavit explaining why further
discovery is necessary. Syl. Pt. 3, Williams, 194, W.VA.
52, 459 S.E.2d 329.
Here, Defendants' Motion avers that "[s]olely for
purposes of the Defendants' Motion for Summary
Judgment, and for no other purposes in this case,
including but not limited to trial, the Defendants will
accept as true the pertinent facts alleged by the Plaintiff
in this case." Def's. Mot. 1 (emph. added). The Plaintiff
filed a competing motion for summary judgment
wherein the Plaintiff likewise contends there are no
genuine issues of material fact. See Pl's. Mot. 7.
Therefore, the Court hereby FlNDS that, by agreement
of the parties, there are no genuine issues of material
fact to prevent summary judgment in this case.
B. Applicable Substantive Law
Pancho's alleges in its Complaint that the Board
"adopted a regulation and custom, under color of law,
at the behest of defendant inspector, a system of
publishing to the public alleged infractions of
restaurant health codes. Said publication system is
calculated to cause injury to the reputation of the
restaurant, and consequent economic damage,
without the necessity of prior notice and the
opportunity for a meaningful hearing as guaranteed by
the due process clause of the 14th Amendment, as well
as the due process clause of the West Virginia
Constitution ...." Compl. 3 (emph. added). "On or about
August 30, 2011, [D]efendants[] published to the
public at large a list ["the Publication"] of alleged
18a

infractions of health codes by [Pancho's,] and damages
were the natural consequences of the action." Id.
Pancho's goes on to assert two causes of action, strictly
on the basis of the Publication: "said action violated
the plaintiff's right to due process of law," and "[s]aid
[P]ublication of August 30, 2011, also violated
plaintiff's right to equal protection of the law."1 See
Compl. 3-4. As a result of the Publication, Pancho's
alleges "damages ... not less than $536,000.00." Compl.
4. As outlined more fully below, Defendants are
entitled to judgment as a matter of law on both
theories of liability because no genuine issues of
material fact prevent summary judgment in this case,
and because the Plaintiff has failed to establish a
prima facie case of liability against the Defendants for
either Due Process or Equal Protection violations,
thereby also failing to assert a viable civil rights claim
under 42 U.S.C.A. § 1983 ("§1983").

1

Plaintiff's Complaint does not specifically allege the
contents of the Publication, or how it did, in fact, damage the
reputation of Pancho's. The Publication contains a list of "Food
Inspections" from April, May, June, and July of 2011, which was
faxed by the Jackson County Health Department to the Jackson
News for printing in August of 2011. The Publication included two
columns of scores for each named restaurant or facility: "NonCritical" and "Critical" health code violations. No named facility
is differentiated in any way from any other named facility.
According to the Publication, Pancho's had 18 non-critical and 9
critical health code violations when it was inspected in April of 20
l l. By comparison, only one other facility had more violations
during an inspection in those months: Shoney's, in May of 2011,
with 24 non-critical violations and 76 critical violations. See Def's.
Mot. for Summ. J. Ex. B at 3-4.

19a

1. The Plaintiff has failed to establish a prima
facie case of liability for a violation of its right to
Due Process of Law under either the
Constitution of the United States or the West
Virginia Constitution.
a) Harm or Injury to an interest in one's
reputation is not an interest subject to Due
Process protection under the U.S.
Constitution.
Any harm or injury to an interest in one's
reputation, even where inflicted by an officer of the
State, does not result in a deprivation of any "liberty"
or "property'' recognized by state or federal law. Paul
v. Davis, 424 U.S. 693, 712, 96 S. Ct 1155, 1166 (1976).
In Paul v. Davis, the U.S. Supreme Court determined
whether the plaintiff therein had a claim for relief
under § 1983 for violation of his due process rights
where law enforcement agencies published and
distributed to hundreds of local businesses a flyer
containing the name and mugshot photo of individuals
who had been arrested for shoplifting, including the
plaintiff. See Paul, 424 U.S. at 694-95, 96 S. Ct. at
1157-58. Along with the plaintiff's photo, the flyer
described "active shoplifters," "shoplifting activity,"
and "subjects known to be active in this criminal field,"
and advised local businesses to "inform your security
personnel to watch for these subjects." Id. After the
flyer had already been widely distributed, the
shoplifting charges against the plaintiff were
dismissed; the plaintiff then brought suit under §1983
and the 14th Amendment, claiming denial of due
20a

process by the agencies that published and distributed
the flyers without notice to the plaintiff nor
opportunity to be heard. Id. Even though the flyer
branded the plaintiff as an "active shoplifter" and a
"criminal" on the basis of the shoplifting arrest after
which he was never convicted, the Supreme Court
definitively held that "the interest in reputation
asserted in [the] case is neither 'liberty' nor 'property'
guaranteed against state deprivation without due
process of law." See Paul, 424 U.S. at 712, 96 S. Ct at
1166.
Here, Plaintiffs §1983 and 14th Amendment due
process claims are based on the publication of
Plaintiffs food inspection scores by the Defendants,
without prior notice to the Plaintiff and opportunity
for a hearing before publication. "This is what made
Pancho's look so bad in this case which injured Its
business reputation and obvious property interest." See
Pl's. Mot. at 14 (emphasis added). The Publication
contains only food inspection scores; it includes no
commentary whatsoever. It does not say, for example,
"these restaurants are unhealthy" or "do not eat at
these restaurants." Plaintiff claims that the
restaurant's reputation was irreparably damaged by
the Publication, notwithstanding the fact that the
inspection scores in question were derived from actual,
unhealthy conditions observed by the Defendants in
Plaintiffs restaurant. In fact, the scores themselves
were a matter of public record.
The reputational damage claimed by Pancho's
falls far short of the conduct that the Paul v. Davis
21a

court found not to be an infringement of due process
Pursuant to the holding in Paul v. Davis, the interest
in it reputation Plaintiff claims was damaged herein
"is neither 'liberty' nor 'property' guaranteed against
state deprivation without due process of law." See
Paul, 424 U.S. at 694-95, 96 S. Ct at 1157-58.
Therefore, the Plaintiff does not have a viable §1983 or
14th Amendment claim for violation of due process
under the U.S. Constitution.
b) The Food Code also provides no source of Due
Process protection.
(1) The Declaratory Judgments Act is
inapplicable to find a Due Process
protection in the Food Code.
Plaintiff's Motion for Summary Judgment
appears to assert2 this Court has the power under the
Declaratory Judgments Act to ratify a theory that the
Food Code provides Due Process protection of a
property interest in reputation, thus expanding the
protections afforded by existing state and federal law.
"Courts of record within their respective
jurisdictions shall have power to declare rights, status
and other legal relations whether or not further relief

2

Plaintiff's Complaint does not raise the Uniform
Declaratory Judgments Act, although it does purport to invoke
jurisdiction pursuant to 18 U.S.C. § 1343, which is the Chapter of
the Federal Criminal Code dealing with "Mail Fraud and Other
Offenses."

22a

is or could be claimed." W. Va. Code § 55-13-1. "As
Justice Cleckley explained in his concurring opinion in
Cox v. Amick, [195 W.Va. 608, 618, 466 S.E.2d 459, 469
(1995)], the West Virginia Uniform Declaratory
Judgment Act, W. Va. Code § 55-13-1 et seq., 'is
designed to enable litigants to clarify legal rights and
obligations before acting upon them.' Thus, 'the
principal purpose of a declaratory judgment action is
to resolve legal questions.'" Black v. St. Joseph's Hosp.
of Buckhannon, Inc., 234 W. Va. 175, 180, 764 S.E.2d
335, 340 (2014) (quoting Joslin v. Mitchell, 213 W.Va.
771, 775, 584 S.E.2d 913, 917 (2003)). "A declaratory
judgment action is a proper procedural means for
adjudicating the legal rights of parties to an existing
controversy that involves the construction and
application of a statute." City of Bridgeport v. Matheny,
223 W. Va. 445, 450, 675 S.E.2d 921, 926 (2009)
(emph. added). Generally, the aim of a declaratory
judgment action is to avoid the expense and delay
which might otherwise result, and to secure in advance
a determination of legal questions which, if pursued,
can be given the force and effect of a judgment or
decree without the long and tedious delay which might
accompany other types of litigation. See Carvey v. W.
Va. State Bd. of Educ., 206 W. Va. 720, 527 S.E.2d 831
(1999).
It is unclear why Pancho's raises the
Declaratory Judgment Act in its Motion, having not
filed an action for declaratory judgment in the first
instance. The present case, as filed, is not an attempt
to clarify legal rights and obligations before acting
upon them; it is not an existing controversy that
23a

involves the construction and application of a statute;
nor is it an attempt to determine legal questions in
advance to later pursue. The present case, as filed, is
an action for damages. This Court has no power under
the Declaratory Judgment Act to "declare" a Due
Process right under the Food Code if it does not
elsewhere exist. Therefore, W. Va. Code § 55-13-1, et
seq., is simply inapplicable in this case.
(2) The Food Code itself provides no means
by which to assert a Due Process claim for
damage to Pancho's reputation.
For Plaintiffs argument that the Food Code is
the source of its due process rights to succeed, there
must be some statement of those claimed rights.
afforded within the Food Code itself. However, no
provisions in the Food Code address publication of food
inspection results, much less prohibit any such
publication without first providing notice and
opportunity to be heard. Section 8-804.20 of the Food
Code permits the summary suspension of a permit
"without prior warning, notice of a hearing, or a
hearing." See Food Code 8-804.20 (emph. added). A
summary suspension of the permit, and the resulting
suspension of the ability to operate the business is a
far more crippling event than publication of food
inspection results--which are a matter of public record-and yet the Food Code requires no hearing for such a
summary suspension of a permit.
In fact, the Food Code only requires a hearing
under specific circumstances or events which result in
24a

a permanent adverse action taken with respect to the
permit itself; it contains no provisions which require or
even imply that notice or a hearing must be provided
to a permit holder prior to the publication of food
inspection results. Hence, the Food Code itself
provides no distinct due process rights. Therefore, the
Court is unpersuaded by, and rejects, the Plaintiff's
argument that the Food Code is the source of due
process protection that would preserve the Plaintiff's
case from summary judgment in this matter.
c) Plaintiff has failed to assert any other law
which would support its Due Process claim, and
injury to an interest in one's reputation is not a
protected "liberty" or "property" interest under
West Virginia law.
(1) Negligence was not plead in this case,
nor can governmental negligence result in
a due process infringement, and therefore
negligence law is inapplicable.
Pancho's did not plead a negligence cause of
action in this matter; the only claims asserted in its
Complaint are the Due Process and Equal Protection
claims discussed herein. However, in Plaintiff's
Motion, Pancho's argues under the heading
"ADMISSIONS OF NEGLIGENCE," that "[t]he Chief
Sanitarian admitted that harm could result ... He then
testified that it was outside the scope of duty not to
take steps to correct the matter; it would not be in
good faith to fail to correct the mater; it was wrong not
to make a correction; moreover it was reckless." Pl's
25a

Mot. Then in Plaintiff's Resistance to Defendants'
Motion for Summary Judgment, Pancho's sets forth
this argument: "A constitutional tort is not different
than any tort, therefore basic tort analysis is
applicable. Causation and injury, of course, are two
predicate parts of any tort. Causation here was
publication. The harm to plaintiff's interest was
proximately caused by the publication, not the
inspection." Pl's. Resistance to Defs. Mot. for Summ. J.
3. From this argument, Pancho's concludes that
"[t]herefore, statutory immunity is misplaced."
Although Pancho's never explicitly explains these
remarks, the Court is left with the impression that
Pancho's is asserting that negligence by the
Defendants resulted, at least in part, in the alleged
constitutional violations.
In this regard, the U.S. Supreme Court in
Daniels v. Williams specifically overruled a prior
contrary holding (from Parratt v. Taylor), saying "we
agree and overrule Parratt to the extent that it states
that mere lack of due care by a state official may
'deprive' an individual of life, liberty, or property under
the Fourteenth Amendment." Daniels v. Williams, 474
U.S. 327, 330-31, 106 S. Ct. 662, 664 (1986) (overruling
Parratt v. Taylor, 451 U.S. 527, 101 S. Ct. 1908
(1981)). The Court was careful to clarify, though: just
because "injuries inflicted by governmental negligence
are not addressed by the United States Constitution is
not to say that they may not raise significant legal
concerns and lead to the creation of protectable legal
interests. The enactment of tort claim statutes, for
example, reflects the view that injuries caused by such
26a

negligence should generally be redressed." Id. at 333,
106 S. Ct. at 666. The Daniels Court rationalized that
although "Petitioner alleges that he was injured by the
negligence of respondent, a [city official,]. .. [w]hatever
other provisions of state law or general jurisprudence
he may rightly invoke, the Fourteenth Amendment to
the United States Constitution does not afford him a
remedy," and concluded that "the Due Process Clause
is simply not implicated by a negligent act of an official
causing unintended loss of or injury to life, liberty, or
property." Id. at 328, 335-36, 106 S. Ct. at 663, 667.
Here, Pancho's argues that "publication" proximately
cause[dl" its alleged injury. To the extent that
Pancho's claims negligence by the Defendants resulted
in Constitutional infringements, because the U.S.
Supreme Court explicitly held that negligence of a
government official does not implicate the Rue Process
Clause, this Court FINDS likewise.
(2) An interest in one's reputation is not a
protected "liberty or "property" interest
under the West Virginia Constitution.
I. Pancho's relies on the Food Code
alone as the source of protection for
its interest in reputation under West
Virginia law.
The U.S. Supreme Court in Paul v. Davis
observed that "Kentucky law does not extend to
respondent any legal guarantee of present enjoyment
of reputation .... [H]is interest in reputation is simply
one of a number which the State may protect against
27a

injury by virtue of its tort law, providing a forum for
vindication of those interests by means of damages
actions." See Paul, 424 U.S. at 711-12, 96 S. Ct. at
1165-66. Plaintiff's argument in response is that the
2005 Food Code has been adopted in West Virginia,
and it is the "local law" to preserve the Plaintiff's
claims from summary judgment in this case. Pancho's
asserts that Due Process protections arise from the
provisions in the Food Code that only generically state
that "[t]he regulatory authority shall justly apply the
remedies according to law and this Code, to preserve
the rights to equal protection and due process of a
person to whom the remedies are applied." See Food
Code 8-601.10; Pl's Mot. for Summ. J. 6 (asserting that
"[t]he Food Code, which is the model adopted by the
federal government, specifically states that the
constitutional rights to due process and equal
protection are preserved").
Plaintiff's corresponding motion for summary
judgment cites no state or federal legal authority aside
from the Food Code that, however remotely, analogous
to the Plaintiff's cause of action for denial of due
process rights. Instead, the Plaintiff cites general legal
principles relating to due process rights and the
general notion that notice and an opportunity to be
heard must first be afforded before "liberty" and/or
"property" rights are adversely affected. The Plaintiff
also asserts that the Defendants "are relying on a
Kentucky case which does not apply to West Virginia,"
evidently referring to the U.S. Supreme Court opinion
Paul v. Davis, and that "[h]ere, in Jackson County,
West Virginia, plaintiff has a protected interest [in its
28a

reputation] recognized by law. Pl's. Resistance to Def's.
Mot. for Summ. J. 1, 5,
ii. West Virginia law is in conformity
with Paul v. Davis.
In upholding a challenged zoning ordinance, the
West Virginia Supreme Court in Grady v. City of St.
Albans relied on a 5th Circuit decision, which in turn
relied in part on Paul v. Davis: "The plaintiffs seem to
urge that the defendants' violation of Florida
administrative law provides a predicate for §1983
recovery. The state court litigation established such a
violation, but not every infraction of state law
constitutes interference with a constitutionally
protected interest.' [Paul, 424 U.S. at 693, 96 S. Ct. at
1155]. Specifically, 'although a Due Process Clause
liberty interest may be grounded in state law that
places substantive limits on the authority of state
officials, no comparable entitlement can derive from a
statute that merely established procedural
requirements.' []" Grady v. City of St. Albans, 171 W.
Va. 18, 22, 297 S.E.2d 424, 428 (1982) (emph. added)
(quoting Couf v. DeBlaker, 652 F.2d 585 (5th Cir. 1981)
(cit. omitted)).
In Hutchison v. City of Huntington, the West
Virginia Supreme Court further addressed due process
protections:
Although the Constitution protects
property interests, it does not create
them to decide whether plaintiff had a
29a

property interest at stake, we look to see
whether some independent source, such
as federal, state, or local law, has created
an enforceable expectation. To have a
property interest, the plaintiff must
demonstrate "more than an abstract need
or desire for it. ... He must, instead, have
a legitimate claim of entitlement to it"
under state or federal law. Additionally,
the protected property interest is present
only when the individual has a
reasonable expectation of entitlement
deriving from the independent source.
State laws therefore guide us in deciding
whether plaintiff possessed only an
unprotected unilateral expectation of a
claim of entitlement, or instead had a
constitutional-protected "legitimate claim
of entitlement."
Hutchison v. City of Huntington, 198 W. Va.139, 154,
479 S,E.2d 649, 664 (1996)(quoting Board of Regents v.
Roth, 408 U.S. 564, 577, 92 S. Ct. 2701, 2709 (1972)).
Most critically for the Court's purposes here,
though, the West Virginia Supreme Court has relied
on the holding of Paul v. Davis in its own
jurisprudence. In Carey v. Dostert, several questions
were certified by the Circuit Court of Morgan County,
including whether "alleged injury to an attorney's
reputation [is] a property or liberty interest protected
by [the 14th] amendment to the United States
Constitution?" Carey v. Dostert, 185 W. Va. 247, 248,
30a

406 S.E.2d 678, 679 (1991). The respondent in Carey
argued that his reputation in the community was
damaged, and "where injury to a person's reputation
demonstrably damages that person's right to earn a
living, a protectable interest pursuant to the
fourteenth amendment should be found to exist." Id. at
255, 406 S.E.2d at 686. The West Virginia Supreme
Court disagreed, relying on Paul to answer the
certified question in the negative: "A property interest
must be more than a person's unilateral expectation,"
and "respondent's argument that the confidentiality
requirements of the Bylaws of the West Virginia State
Bar somehow elevates his reputation to a property or
liberty interest is simply wrong."3 Id. at 255-56, 406
S.E.2d at 686-87.
The West Virginia Supreme Court once again
relied on Paul v. Davis in a 2017 opinion that dealt
with a government employee's claimed liberty interest
in her "good name." Although the relevant holdings of
W. Va. Dep't of Educ. v. McGraw were based on a tort
claim rather than constitutional claims, they are still
applicable here. In part, the Court held that "to state
a claim for a violation of a government employee's
liberty interest in his/her good name, the employee
must allege that the stigmatizing statement made
against him/her was false." W. Virginia Dep't of Educ.
v. McGraw, 239 W. Va. 192, 800 S.E.2d 230, 239
(2017). Unlike in McGraw, the truth of the Publication
complained of is not challenged, and in fact the
3

The Court therefore concluded that no cause of action
was·stated under § 1983.

31a

Plaintiff admits that the published health code
violations were accurate. In setting out a four-part test
for determining violations in that context, the McGraw
Court went on to emphasize that a complained of
publication must be false to implicate a liberty
interest:
[F]inally, the statement forming the
basis of the liberty interest claim must
have been made in connection with a
serious adverse employment action. This
requirement is derived from Paul v.
Davis, in which the Court clearly
provided that there is "no constitutional
doctrine converting every defamation by
a public official into a deprivation of
liberty within the meaning of the Due
Process Clause[.]" To hold otherwise
"would make of the [Due Process Clause]
a font of tort law." Thus, reputation
alone, "apart from some more tangible
interest, such as employment, .. . is
[insufficient] to invoke the procedural
protection of the Due Process Clause [.]"
Therefore, we hold that a government
employer implicates its employee's
liberty interest in his/her good name
when the following elements are alleged:
(1) a stigmatizing statement; (2) which
was false; (3) was published, or made
accessible to the public; (4) in connection
with a serious adverse employment
action. When these elements are met, the
32a

employee must be afforded procedural
safeguards under Article III, Section 10
of the West Virginia Constitution.
Applying these principles to the present
case, the facts alleged in Ms. McGraw's
complaint do not state a claim for a
liberty interest violation. Her complaint
does not dispute the truth of the letter...
In a similar case, Melton v. City of Okla.
City, the court found that a police
department did not violate a terminated
police officer's liberty interest by
informing news media that the FBI was
investigating the officer for perjury, even
though the charge was ultimately found
to be baseless. The court explained its
finding as follows: "all the statements
made by Lt. McBride were true. Mr.
Melton was accused by the FBI of having
committed perjury[.] .... Fairly read in
context, there is nothing contained in
either publication which suggests Lt.
McBride accepted the accusation as true
or accepted it as its own."
Likewise, Ms. McGraw was under
investigation in Virginia for
misallocating public funds for personal
use, and the DOE had no part in leveling
the underlying charges against her or
causing the investigation to be brought
33a

about. Therefore even if the DOE leaked
the letter to the Charleston Gazette, as
Ms. McGraw has alleged, the letter's
statements were true. We find no
distinguishing factor in this case which
sets Ms. McGraw apart from the plaintiff
in Melton.
Thus, we find that under the facts of this
case, Ms. McGraw's liberty interest was
not implicated. She was not entitled to
procedural safeguards under the Due
Process Clause. There was no liberty
interest violation in this case, and we do
not find any other constitutional or
statutory right infringed upon by the
DOE.
W. Virginia Dep't of Educ, v. McGraw, 239 W. Va. 192,
800 S.E.2d 230, 239-40 (2017) (citing Melton v. City of
Oklahoma City, 928 F.2d 920 (10th Cir, 1991)). Here,
as in McGraw, Pancho's was inspected by the
Defendants, and food code violations were found; the
Publication was factual, and thus no procedural
safeguards arose under the Due Process Clause
because of the Publication.
Indeed, Plaintiff has cited no West Virginia
statute or case law to support its claim of
constitutional protection of its reputation alone. Even
considering the totality of the record evidence in a
light most favorable to the Plaintiff, that evidence
could not lead a rational trier of fact to find for the
34a

Plaintiff on its Due Process claim because the Plaintiff
has failed to establish a deprivation of due process
rights to sustain a §1983 cause of action. This Court
hereby FINDS that West Virginia law does not extend
to the Plaintiff any legal guarantee of present
enjoyment of reputation and that, instead, the
Plaintiff's reputation is simply one of a number of nonconstitutional interests which the State may protect
against injury by virtue of its tort law and not by
virtue of §1983 civil rights lawsuits. Consequently,
this Court FINDS that the Defendants are entitled to
judgment as a matter of law as to Plaintiff's due
process claims.
2. The Plaintiff has failed to establish a
prima facie case of liability for a violation
of its right to equal protection under
either the Constitution of the United
States or the West Virginia Constitution.
a) The West Virginia Supreme Court
recognizes implicit "equal
protection" in the West Virginia
Constitution, and West Virginia
Courts depend on federal
jurisprudence for guidance in this
arena.
By way of dictum, in Israel by Israel v. W. Va.
Secondary Schools Activities Commission the West
Virginia Supreme Court expansively addressed the
status of equal protection jurisprudence in West
Virginia:
35a

[A]lthough the phrase "equal protection"
is not found in our constitution, its
principles are an integral part of our
constitutional law. Our cases have not
been uniform as to where this principle
reposes in our constitution .... The same
problem exists in the Fifth Amendment
to the United States Constitution, which
also, lacks an "equal protection clause."
When addressing actions of the federal
government, the United States Supreme
Court has traditionally found that the
concept of equal protection is embodied in
the Due Process Clause of the Fifth
Amendment. "(The U.S. Supreme
Court's] approach to Fifth Amendment
equal protection claims has always been
precisely the same as to equal protection
claims under the Fourteenth
Amendment."
In order to finally settle where our state's
constitutional equal protection principle
is located, we hold that it is a part of our
Due Process Clause found in Article III,
Section 10 of the West Virginia
Constitution, ... "the scope and
application of this protection is
coextensive or broader than that of the
fourteenth amendment to the United
States Constitution."
"[W]e have obtained guidance from
36a

federal cases interpreting the equal
protection mandate of the Fourteenth
Amendment to the United States
Constitution[.]" In dicta in Peters, [infra]
we strayed from this principle ... [W]e
conclude that our dictum in Peters with
regard to our state equal protection
standard for gender-based discrimination
should be modified. We adopt the analysis
used by the United States Supreme Court
and other state courts.
Israel, by Israel v. W. Va. Sec. Sch. Act. Comm'n, 182
W. Va. 454, 460-62, 388 S.E.2d 480, 486- 88 (1989) (int.
cit. omitted).
b) No classification and no discrimination
arises from the implementation of the
Policy that supports an equal protection
claim.
(1) The Publication created no
classification among the similarly
situated entities subject to
inspection by the Defendants.
"Equal protection of the law is implicated when
a classification treats similarly situated persons in a
disadvantageous manner. The claimed discrimination
must be a product of state action." Syl. Pt. 3,
MacDonald v. City Hospital, Inc., 227 W.Va. 707, 715
S.E.2d 405 (2011) (emphasis added) (quoting Syl. Pt.
2, Israel, 182 W. Va. 454, 388 S.E.2d 480). Curiously,
37a

Pancho's rests its equal protection claim on the
premise that it was treated in the same manner as
everyone else subject to the Policy. According to
Pancho's complaint: "First, the format of the
newspaper publication arbitrarily and unfairly lumps
together everyone who happened to be inspected
during a given month. Second, there is no attempt in
the publication to distinguish whether a score is from
a routine inspection or follow-up." See Pl's. Mot. on
Pub. Against Jackson Cty. Health Dept. at 13, ¶ 4. In
fact, the Plaintiff goes on to emphasize this point: "[a]s
a matter of equal protection and substantive due
process, there is no rational reason for this
government agency to fail to differentiate in the
publication." Id. 14 (emph. added). Hence, the
Plaintiff's own words suggest that the Policy did not
establish classifications or otherwise discriminate in
its implementation by ''fail[ing] to differentiate" among
the restaurants and other entities subject to the
Defendants' inspections. Because the Publication
created no classification and no differentiation among
any of the entities inspected by the Defendants, equal
protection is not implicated on the basis of an unlawful
classification.
(2) The Publication also fostered no
disparate impact, and even if it did,
the Plaintiff has not shown that the
Defendants intended to discriminate
against them by way of the
Publication.
Even when government action creates no
38a

classification, equal protection may still be implicated
where a law is facially neutral but creates a disparate
impact. But in such an instance, a plaintiff must show
that the government intended to discriminate against
the affected group to prevail. See, e.g., Wayte v. United
Stares, 470 U.S. 598, 610, 105 S. Ct 1524, 1532 (1985)
(quoting Personnel Admin. of Mass. v. Feeney, 442 U.S.
256, 99 S. Ct. 2282 (1979) (fn. and cit. omitted)) ("Even
if the passive policy had a discriminatory effect,
petitioner has not shown that the Government
intended such a result. ... As we have noted ... :
"'[D]iscriminatory purpose" ... implies more than ...
intent as awareness of consequences. It implies that
the decisionmaker ... selected or reaffirmed a
particular course of action at least in part "because of
" not merely "in spite of," its adverse effects upon an
identifiable group.'")
Plaintiff has failed to articulate any such
argument for the Court to consider, or provide any
factual or evidentiary basis on which the Court could
consider an equal protection challenge on such
grounds. Additionally, such a challenge, based on a
facially neutral law, would require Pancho's to prove
the Policy was enacted for the purpose of
discriminating against them by way of the Publication.
Therefore, Pancho's has not demonstrated such a
prima facie equal protection claim, which would
prevent the Court from granting summary judgment
fur the Defendants on this issue.
b) Even if the Publication had created a
discriminatory classification, no
39a

fundamental rights or suspect classes are
in play to trigger heightened scrutiny, and
a rational basis exists to justify the
Publication.
(1) Unless a challenged government
action targets a "suspect class" or
burdens the exercise of a
"fundamental right," the Court
should apply rational basis review.
I. To survive rational basis
review, the Plaintiff must
demonstrate that the
challenged government action
bears no rational relationship
to
any
legitimate
governmental purpose.
Under both Federal and State constitutional
jurisprudence, one of two tests are most frequently
applied to review a government action challenged on
equal protection grounds: "the rational relationship
test under which a legislative classification must be
sustained unless it is patently arbitrary and bears no
rational relationship to a legitimate governmental
interest, see Jefferson v. Hackney, 406 U.S. 535, 92 S.
Ct. 1724 (1972); Richardson v. Belcher 404 U.S. 78, 92
S. Ct. 254 (1971); [or] the compelling interest test ...
San Antonio School Dist. v. Rodriguez, 411 U.S. 1, 93
S. Ct. 1278 (1973)." Peters v. Narick, 165 W. Va. 622,
628 fn 12, 270 S.E.2d 760, 764 fn 12 (1980) (rejecting
the federal approach that has expanded to three tiers
40a

of scrutiny, including a middle tier for gender-based
classifications) holding modified by Israel, 182 W. Va.
454, 388 S.E.2d 480 (adopting the federal three tiered
approach previously rejected by Peters in holding at
Syl. Pt. 5 that "[a] gender-based classification
challenged as denying equal protection under Art. III,
§10 of the W. Va. Constitution can be upheld only if
the classification serves an important governmental
objective and is substantially related to the
achievement of that objective").
The United States Supreme Court has held that:
As long as [a governmental] distinction
has a rational basis, that distinction does
not violate the Equal Protection Clause
.... "[A] classification neither involving
fundamental rights nor proceeding along
suspect lines . . . cannot run afoul of the
Equal Protection Clause if there is a
rational relationship between the
disparity of treatment and some
legitimate governmental purpose."
Armour v. City of Indianapolis, Ind., 566 U.S. 673,
680, 132 S. Ct. 2073, 2080 (2012) (quoting Heller v.
Doe, 509 U.S. 312, 319-320, 113 S. Ct. 2637 (1993))
(emph. added). The West Virginia Supreme Court of
Appeals has likewise held:
Whether a . . . governmental action
violates the Equal Protection Clause is a
determination made by the application of
41a

one of two constitutional tests. The more
demanding test relates to statutes which
impinge upon sensitive and fundamental
rights and constitutional freedoms, such
as religion and speech. In order to uphold
such a statute, a reviewing court must
find that a compelling state interest is
served by the classification. In all other
instances, ... the traditional standard
requiring that the state law be shown to
bear some rational relationship to
legitimate state purposes [applies].
Under this test, the court must consider
whether the classification bears a
reasonable relationship to a proper
governmental purpose; and whether all
persons within the classes established
are treated equally.
Courtney v. State Dep't of Health of W. Virginia, 182
W. Va. 465, 470, 388 S.E.2d 491, 496 (1989) (quoting
State ex rel. Piccirillo v. City of Follansbee, 160 W.Va.
329, 333, 233 S.E.2d 419, 423 (1977)). Therefore,
"[w]here [a] classification is rational and bears the
requisite reasonable relationship, the statute does not
violate Section 10 of Article III of the West Virginia
Constitution, which is our equal protection clause."
Syl. Pt. 4, in part, MacDonald, 227 W.Va. 707, 715
S.E.2d 405 (cit. omitted).
ii. Heightened scrutiny is only
appropriate where government
42a

action targets a "suspect class" or
burdens the exercise of a plaintiff's
fundamental right, or "liberty
interest,"
"[C]lassifications based upon race, alienage,
national origin or poverty are inherently suspect, [and]
they must be subjected to strict judicial scrutiny and
invalidated unless the state demonstrates a compelling
interest to justify them." Peters, 165 W. Va. at 628 fn
12, 270 S.E.2d at 764 fn 12 (citing San Antonio, 411
U.S. 1, 93 S. Ct. 1278). Plaintiff's claim does not
discriminate on the basis of any "suspect class"--one
which is based upon a characteristic that is
permanent, immutable, or a condition of birth such as
race or national origin--as might be the case if, for
example, Pancho's claimed that the Policy somehow
classified and targeted only restaurants serving
international cuisine and run by persons of a certain
race or national origin. See Peters, 165 W. Va. at 631,
270 S.E.2d at 765. Consequently, the heightened strict
scrutiny and compelling state interest tests are
inapplicable on the basis of a suspect class targeted by
the Policy.
Furthermore, no "fundamental rights" are even
suggested in this case. The concept of fundamental
rights is a well-established tenet of Constitutional law
jurisprudence for which authority is widespread; such
rights include, for example, these "liberty interests"
freedom of religion, of speech, and of association; and
the right to vote, to marry, to procreate, to travel freely
among the state, to raise children as one sees fit, to
43a

refuse medical treatment and to receive a public
education. Here, Plaintiff has not demonstrated any
way in which the challenged Policy burdens Pancho's
exercise of any of these fundamental rights. Because
no fundamental right is burdened, Plaintiff is also not
entitled to the heightened strict scrutiny or compelling
state interest tests on this basis.
iii. Plaintiff's claim fails under
rational basis review.
Under the applicable rational basis test,
Plaintiff's equal protection claim fails because the
Policy bears a rational relationship to at least one, and
likely multiple, state purposes. For example, the Policy
bears a rational relationship to the following
reasonable state purposes: (1) widely and effectively
informing the public regarding the compliance of
restaurants (and other entities subject to health
department food code inspections) with the Food Code;
(2) making information from public documents more
easily and widely available through publication rather
than in-person review of the inspection reports at the
health department, or through FOIA requests; (3)
avoiding public confusion in the presentation of the
information; or (4) avoiding multiple publications and
potential multiple expenditures of government funds
to publish beyond the local newspaper's willingness to
publish for free when space is available. Therefore, the
Plaintiff has not met its burden of showing the Policy
is in any way unreasonable, arbitrary, or capricious.
Given the rational relationship between the Policy and
the foregoing, legitimate state purposes, the Court
44a

FINDS that the Plaintiff cannot prevail on its equal
protection claim, and thus the Defendants are entitled
to judgment as a matter of law as to Plaintiff's equal
protection claims.
III. Ruling
For the reasons stated above, this Court is of the
opinion to, and does, hereby ORDER:
1)

The Plaintiff's Cross-Motion for Summary
Judgment shall be, and is, hereby DENIED;

2)

summary judgment shall be, and is, hereby
GRANTED in favor of the Defendants and
against the Plaintiff as to all of the Plaintiff's
claims on the grounds set forth above, and in
accordance, the Defendants' Motion for
Summary Judgment shall be, and is, hereby
GRANTED;

3)

based upon the foregoing rulings, this case shall
be, and is, hereby DISMISSED WITH
PREJUDICE, with each party bearing their
own respective attorneys' fees and costs;

4)

this is an appealable FINAL ORDER pursuant
to W. Va. Code § 58-5-1; and

5)

the Circuit Clerk of Jackson County, West
Virginia, shall remove this case from the Court's
docket and provide certified copies of this Order
to all counsel of record.
45a

Entered the 4th day of December 2017.
PANCHO'S LLC,
Plaintiff,
v.
JAMES T. HUGHES,
MARGARET RITCHIE,
JOYCE ROBINSON,
TERRI RANSON,
JAMES MCCOY,
MARSHA GEYER,
KEITH KING,
JUDITH MILLER,
in their official and individual capacities
as members of the
JACKSON COUNTY BOARD OF HEALTH,
JONATHAN GRAZIANI, Inspector for the
JACKSON COUNTY HEALTH DEPARTMENT, and
SUSAN HOSAFLOOK, Administrator of the
JACKSON COUNTY HEALTH DEPARTMENT,
Defendants.
Civil Action No. 13-C-98 (Jackson)
Judge Lora A. Dyer
A TRUE COPY, CERTIFIED THIS THE
DEC 04 2017
/s/
CLERK CIRCUIT COURT
OF JACKSON COUNTY, WEST VIRGINIA

46a

APPENDIX C
IN THE CIRCUIT COURT OF JACKSON
COUNTY, WEST VIRGINIA
PANCHO'S LLC,
Plaintiff,
v.

Civil Action No. 13-c-98

JAMES T. HUGHES, MARGARET RITCHIE,
JOYCE ROBINSON, TERRI RANSON, JAMES
McCOY, MARSHA GEYER, KEITH KING, JUDITH
MILLER, in their official and individual capacities
as members of the JACKSON COUNTY
BOARD OF HEALTH, JONATHAN GRAZIANI,
Inspector for the Jackson County Health Department,
SUSAN HOSAFLOOK, Administrator of the Jackson
County Health Department, JACKSON COUNTY
BOARD OF HEALTH, by corporate and politic,
John Doe #1, in individual and official capacity, and
John Doe #2, in individual and official capacity.
Defendants.
[DATE STAMP]
RECORDED
2013 AUG 23 PM 1:35
BRUCE W. DEWEES
JACKSON COUNTY
CIRCUIT CLERK
RIPLEY, WV 25271
47a

1.

Jurisdiction of this Court is invoked pursuant to
18 USC §1343. This action is brought pursuant
to 42 USC §1983, to redress the deprivation of
rights, privileges and immunities secured by the
14th Amendment to the United States
Constitution. Venue of this action is proper
under 28 USC §1391(b).
This action is also brought pursuant to the
Constitution of the State of West Virginia, most
particularly the right to due process and equal
protection of law.
a.

On information and belief, this matter is
covered by insurance.

b.

Notice has been given pursuant to WV
Code §55-17-3.

2.

Plaintiff, Pancho's LLC, is a corporation
organized pursuant to the laws of the State of
West Virginia, which did business in Jackson
County, West Virginia, formerly operating a
restaurant business in the City of Ravenswood
known as "Pancho's," and had a property
interest in said business.

3.

All defendants are residents of Jackson County,
and all actions, as hereafter alleged, undertaken
by them in their individual and official
capacities, occurred in Jackson County West
Virginia.

48a

4.

Defendants JAMES T. HUGHES, MARGARET
RITCHIE, JOYCE ROBINSON, TERRI
RANSON, JAMES McCOY, MARSHA GEYER,
KEITH KING, JUDITH MILLER, (hereafter
"Board") are members of the Jackson County
Health Department, and as such are bound by
the statutory authority of the State of West
Virginia as are the Defendants, JACKSON
COUNTY BOARD OF HEALTH, corporate and
politic, John Doe #1, in individual and official
capacity and John Doe #2, in individual and
official capacity.

5.

Defendant JONATHAN GRAZIANI (hereafter
"inspector") was, at all times pertinent hereto,
an inspector for the Jackson County Health
Department, and bound by the statutory
authority provided by the laws of West Virginia.
Defendant, Susan Hosaflook (hereafter
"Administrator"), was at all times pertinent
hereto, an Administrator for the Jackson
County Health Department and bound by the
statutory authority provided by the laws of
West Virginia.

6.

All actions taken by all the defendants were
taken under color of law, nevertheless,
defendants overstepped the bounds set by West
Virginia law.

7.

More particularly, defendants are bound to
follow West Virginia Code § 16-6-9 with regard
to sanctions, penalties and proceedings in the
49a

enforcement of inspection of restaurant facilities
within their jurisdiction. Said Code provisions
provide a system to test alleged infractions of
health codes by prior notice and the opportunity
for a meaningful hearing.
8.

Notwithstanding the West Virginia statutory
provisions mentioned above, defendant Board
adopted a regulation and custom, under color of
law, at the behest of defendant inspector, a
system of publishing to the public alleged
infractions of restaurant heath codes. Said
publication system is calculated to cause injury
to the reputation of the restaurant, and
consequent economic damage, without the
necessity of prior notice and the opportunity for
a meaningful hearing as guaranteed by the due
process clause of the 14th Amendment, as well
as the due process clause of the West Virginia
Constitution.

9.

On or about August 30, 2011, defendants,
published to the public at large a list of alleged
infractions of health codes by the plaintiff,
without prior notice and the opportunity for a
meaningful hearing on the matters, and
damages were the natural consequences of the
action. Said action violated the plaintiff's right
to due process of law as follows:
a.

There are no provisions whatsoever in
the statutes of West Virginia for
publication of alleged violations of health
50a

codes.
b.

County agencies may only act pursuant
to statutory authority.

c.

Plaintiff was sanctioned and penalized by
the publication without prior notice and
the opportunity for a hearing as
guaranteed by the United States and
West Virginia Constitutions.

d.

Plaintiff remonstrated against the
publication system to no avail.

10.

Said publication of August 30, 2011, also
violated plaintiff's right to equal protection of
the law. More particularly, by custom,
restaurants with alleged violations were
permitted to correct infractions prior to
publication. Any remaining violations after
reinspection were then published.
Notwithstanding this practice by defendants,
plaintiff's alleged original violations were
published by Defendant Board and
Administrator despite corrections by plaintiff.
Hence, the publication greatly enhanced the
appearance of alleged unsanitary conditions on
the plaintiff's business premises as compared to
other restaurants similarly situated who were
permitted corrections before publication.

11.

Plaintiff has suffered damages in the amount
not yet determined but not less than
51a

$536;000.00.
WHEREFORE, Plaintiff seeks in damages in an
appropriate sum, interest and costs, plus reasonable
attorney fees, together with such other relief as the
Court may deem appropriate.
PANCHO'S LLC,
Plaintiff By Counsel.
HIGINBOTHAM & HIGINBOTHAM, PLLC
/s/
Forrest A. Bowen
(West Virginia State Bar ID # 7422)
George R. Higinbotham, Jr
(West Virginia State Bar ID # 1719)
132 Adams Street Suite 100
Post Office Box 567
Fairmont West Virginia 26554
(304) 366-2900

52a

APPENDIX D
Annex 1
Compliance and Enforcement
1.
2.
3.
4.
5.

PURPOSE
EXPLANATION
PRINCIPLE
RECOMMENDATION
PARTS
8-6
CONSTITUTIONAL PROTECTION
8-7
NOTICES
8-8
REMEDIES

1. PURPOSE
The purpose of this Annex is to set forth provisions, in
codified form, that provide a full array of enforcement
mechanisms while recognizing the diverse statutes
and regulations that currently govern the operations
of the thousands of State and local regulatory agencies.
2. EXPLANATION
State or local statutes, regulations, and ordinances
vary in their design, specificity, and degree of
comprehensiveness in that they may:
(A) Contain authorities that provide the basis
for certain post-Inspection compliance
strategies but remain silent with respect to
53a

other enforcement mechanisms;
(B) Include specific requirements that are
different from those provided in this Annex; and
C) Be structured so that provisions such as
administrative procedures are embodied in
sections of the law that transcend and are
separate from those governing food
establishments.
Consequently, In this document a deliberate attempt
is made to extract those provisions that could
conceptually be adopted as an extension of Chapter 8
if they were compatible with existing, governing State
and local statutes. The extracted provisions are
numbered to sequentially follow Chapter 8 but are
placed in this Annex so that regulatory agencies can
revise them to be consistent with their statutes and
their needs as discussed in the Recommendation,
below.
It is anticipated that adoption of this Code will be
facilitated by the fact that:
(A) The compliance provisions of Chapter 8 that
should be an integral part of State or local food
regulations are part of the text of the Code; and
(B) The administrative and judicial enforcement
provisions that are critical to the framework of
a food regulatory program, but that may be
repetitive or discrepant when compared to State
54a

or local statutes, are separated in this Annex.
3. PRINCIPLE
Although the situations necessitating escalated
enforcement actions comprise a small percentage of
those encountered by the regulator, a full spectrum of
enforcement tools must be available where immediate
hazards exist, or where compliance is not obtained
voluntarily. Thus, a jurisdiction must have in place
both the necessary statutory framework that includes
a broad-based, well-defined enforcement component
and regulations that specify the requirements within
those legal authorities. It is Imperative that there be
clearly stated and legally sound rules that include the
criteria for compliance and enforcement, the
responsibilities of all parties, sanctions for
noncompliance, and due process guarantees.
4. RECOMMENDATION
FDA recommends that agencies assess their statutory
provisions that pertain to food establishments in light
of this Annex and consider proposing changes to their
statutes and regulations where they determine that
provisions contained within this Annex will strengthen
their programs. Such an assessment may Involve
reviewing problems encountered in attempts to
prosecute under existing State or local provisions;
considering comments received by the regulatory
authority about its enforcement process; consulting
with staff and legal counsel to identify gaps or
weaknesses in the provisions; comparing provisions
55a

with sister agencies for comprehensiveness, equity,
and uniformity; and seeking input from outside
sources that have experience in taking, or being the
subject of, enforcement actions.
Appropriate wording and cross referencing changes to
the provisions in this Annex may be necessary, based
on whether they are adopted as statutes or
regulations. Modifications to the adoption forms
(Forms #2-A and #2-B In Annex 7) may also be
necessary based on that decision.
Parts
8-6
8-7
8-8

CONSTITUTIONAL PROTECTION
NOTICES
REMEDIES

8-6

CONSTITUTIONAL PROTECTION
Subparts
8-601 Procedural Safeguards
8-602 Judicial Review

Procedural
Safeguards
8-601.10 Preservation of Rights.
The REGULATORY AUTHORITY shall justly apply
the remedies according to LAW and this Code, to
preserve the rights to equal protection and due process
of a PERSON to whom the remedies are applied.
56a

8-602.10 Rights of Recipients of Orders or
Decisions.
A recipient of a REGULATORY AUTHORITY order or
decision may file a petition for judicial review in a
court of competent Jurisdiction after available
administrative appeal remedies are exhausted.
8-7

NOTICES
Subpart
8-701 Service of Notice

Service of Notice
8-701.10 Proper Methods.
(Note: Adoption of this section provides the basis
for serving notice of Inspectional findings as
specified in § 8-403.30 and would be cited there.)
A notice issued ln accordance with this Code shall be
considered to be properly served if it is served by one
of the following methods:
(A) The notice is personally served by the
REGULATORY AUTHORITY, a LAW enforcement
officer, or a PERSON authorized to serve a civil
process to the PERMIT HOLDER, the PERSON IN
CHARGE, or PERSON operating a FOOD
ESTABLISHMENT without a PERMIT;
(B) The notice is sent by the REGULATORY
57a

AUTHORITY to the last known address of the
PERMIT HOLDER or the PERSON operating a FOOD
ESTABLISHMENT without a PERMIT, by registered
or certified mail or by other public means so that a
written acknowledgment of receipt may be acquired; or
(C) The notice is provided by the REGULATORY
AUTHORITY in accordance with another manner of
service authorized in LAW.
8-701.20 Restriction or Exclusion Order, Hold
Order or Summary Suspension.
An EMPLOYEE RESTRICTION or EXCLUSION
order, an order to hold and not distribute FOOD, such
as a hold, detention, embargo, or seizure order which
is hereinafter referred to as a hold order, or a
summary suspension order shall be:
(A) Served as specified in ¶ 8-701.10(A); or
(B) Clearly posted by the REGULATORY
AUTHORITY at a public entrance to the FOOD
ESTABLISHMENT and a copy of the notice sent by
first class mail to the PERMIT HOLDER or to the
owner or custodian of the FOOD, as appropriate.
8-701.30 When Notice Is Effective.
Service is effective at the time of the notice's receipt or
If service Is made as specified in ¶ 8-701.20(B), at the
time of the notice's posting.

58a

8-701.40 Proof of Proper Service.
Proof of proper service may be made by affidavit of the
PERSON making service or by admission of the receipt
signed by the PERMIT HOLDER, the PERSON
operating a FOOD ESTABLISHMENT without a
PERMIT to operate, or an authorized agent.
8-8

REMEDIES
Subparts
8-801 Criteria for Seeking Remedies

Administrative
8-802 Inspection Orders
8-803 Holding, Examination, and
Destruction of Food
8-804 Summary Permit Suspension
8-805 Hearings Administration
8-806 Hearing Officer, Purpose,
Qualifications, Appointment,
and Powers
8-807 Rights of Parties and Evidence
8-808 Settlement
Judicial
8-809 Inspection Orders
8-810 Means of Instituting Judicial
Enforcement Proceedings
8-811 Criminal Proceedings
8-812 Injunctive Proceedings
8-813 Civil Proceedings
59a

Criteria for Seeking Remedies
8-801.10 Conditions Warranting Remedy.
The REGULATORY AUTHORITY may seek an
administrative or judicial remedy to achieve
compliance with the provisions of this Code if a
PERSON operating a FOOD ESTABLISHMENT or
EMPLOYEE:
(A) Fails to have a valid PERMIT to operate a FOOD
ESTABLISHMENT as specified under § 8-301.11;
(B) Violates any term or condition of a PERMIT as
specified under § 8-304.11;
(C) Allows serious or repeated code violations to
remain uncorrected beyond time frames for correction
APPROVED, directed, or ordered by the
REGULATORY AUTHORITY under ¶¶ 8405.11(A)
and (B), and ¶¶ 8406.11(A) and (B);
(D) Fails to comply with a REGULATORY
AUTHORITY order issued as specified in § 8-501.20
concerning an EMPLOYEE or CONDITIONAL
EMPLOYEE suspected of having a disease
transmissible through FOOD by infected PERSONS;
(E) Fails to comply with a hold order as specified in §
8-803.10;
(F) Fails to comply with an order issued as a result of
a hearing for an administrative remedy as specified in
§ 8-806.40; or
60a

(G) Fails to comply with a summary suspension order
issued by the REGULATORY AUTHORITY as
specified in §§ 8-701.20 and 8-804.10.
Administrative
Inspection Orders
8-802.10 Gaining Access
Records.

to

Premises

and

(Note: Adoption of this section provides the basis
for Subparagraph 8-402.20(A)(3) and § 8-402.40
and would be cited there.)
The REGULATORY AUTHORITY may order access
for one or more of the following purposes, subject to
LAW for gaining access:
(A) If admission to the PREMISES of a FOOD
ESTABLISHMENT is denied or other circumstances
exist that would justify an inspection order under
LAW, to make an inspection including taking
photographs;
(B) To examine and sample the FOOD; and
(C) To examine the records on the PREMISES relating
to FOOD purchased, received, or used by the FOOD
ESTABLISHMENT.
8-802.20 Contents of Inspection Order.
The REGULATORY AUTHORITY'S inspection order
61a

shall:
(A) Stipulate that access be allowed on or to the
described PREMISES, FOOD, or records under the
order's provisions;
(B) Provide a description that specifies the
PREMISES, FOOD, or records subject to the order;
and
(C) Specify areas to be accessed and activities to be
performed.
Holding, Examination, and
Destruction of Food
8-803.10 Hold Order, Justifying Conditions and
Removal of Food.
(Note: Adoption of this section provides the basis
for ¶ 3-202.18(B) and would be cited there.)
(A) According to time limits imposed by LAW, the
REGULATORY AUTHORITY may place a hold order
on a FOOD that:
(1) Originated from an unAPPROVED source;
(2) May be unsafe, ADULTERATED, or not
honestly presented;
(3) Is not labeled according to LAW, or, if raw
MOLLUSCAN SHELLFISH, is not tagged or labeled
according to LAW; or
62a

Code.

(4) Is otherwise not in compliance with this

(B) If the REGULATORY AUTHORITY has reasonable
cause to believe that the hold order will be violated, or
finds that the order is violated, the REGULATORY
AUTHORITY may remove the FOOD that is subject to
the order to a place of safekeeping.
8-803.20 Hold Order, Warning or Hearing Not
Required.
The REGULATORY AUTHORITY may issue a hold
order to a PERMIT HOLDER or to a PERSON who
owns or controls the FOOD, as specified in § 8-803.10,
without prior warning, notice of a hearing, or a
hearing on the hold order.
8-803.30 Hold Order, Contents.
The hold order notice shall:
(A) State that FOOD subject to the order may not be
used, sold, moved from the FOOD ESTABLISHMENT,
or destroyed without a written release of the order
from the REGULATORY AUTHORITY;
(B) State the specific reasons for placing the FOOD
under the hold order with reference to the applicable
provisions of this Code and the HAZARD or adverse
effect created by the observed condition;
(C) Completely identify the FOOD subject to the hold
63a

order by the common name, the label information, a
container description, the quantity, REGULATORY
AUTHORITY'S tag or identification information, and
location;
(D) State that the PERMIT HOLDER has the right to
an appeal hearing and may request a hearing by
submitting a timely request as specified in §§ 8-805.10
and 8-805.20;
(E) State that the REGULATORY AUTHORITY may
order the destruction of the FOOD if a timely request
for an appeal hearing is not received; and
(F) Provide the name and address of the
REGULATORY AUTHORITY representative to whom
a request for an appeal hearing may be made.
8-803.40 Hold Order, Official Tagging of Food.
(A) The REGULATORY AUTHORITY shall securely
place an official tag or label on the FOOD or containers
or otherwise conspicuously identify FOOD subject to
the hold order.
(B) The tag or other method used to identify a FOOD
that is the subject of a hold order shall include a
summary of the provisions specified in § 8-803.30 and
shall be signed and dated by the REGULATORY
AUTHORITY.
8-803.51 Hold Order, Food May Not Be Used or
Moved.
64a

(A) Except as specified in ¶ (B) of this section, a FOOD
placed under a hold order may not be used, sold,
served, or moved from the establishment by any
PERSON.
(B) The REGULATORY AUTHORITY may allow the
PERMIT HOLDER the opportunity to store the FOOD
in an area of the FOOD ESTABLISHMENT If the
FOOD is protected from subsequent deterioration and
the storage does not restrict operations of the
establishment.
8-803.60 Examining, Sampling, and Testing Food.
The REGULATORY AUTHORITY may examine,
sample, and test FOOD in order to determine its
compliance with this Code.
8-803.70 Hold Order, Removing the Official Tag.
Only the REGULATORY AUTHORITY may remove
hold order tags, labels, or other Identification from
FOOD subject to a hold order.
8-803.80 Destroying or Denaturing Food.
If a hold order is sustained upon appeal or if a timely
request for an appeal hearing is not filed, the
REGULATORY AUTHORITY may order the PERMIT
HOLDER or other PERSON who owns or has custody
of the FOOD to bring the FOOD into compliance with
this Code or to destroy or denature the FOOD under
the REGULATORY AUTHORITY's supervision.
65a

8-803.90 Releasing Food from Hold Order.
The REGULATORY AUTHORITY shall issue a notice
of release from a hold order and shall remove hold
tags, labels, or other identification from the FOOD if
the hold order is vacated.
Summary Permit Suspension
8-804.10 Conditions Warranting Action.
The REGULATORY AUTHORITY may summarily
suspend a PERMIT to operate a FOOD
ESTABLISHMENT if it determines through
inspection, or examination of EMPLOYEES, FOOD,
records, or other means as specified in this Code, that
an IMMINENT HEALTH HAZARD exists.
8-804.20 Summary Suspension, Warning or
Hearing Not Required.
The REGULATORY AUTHORITY may summarily
suspend a PERSON'S PERMIT as specified in § 8804.10 by providing written notice as specified in § 8701.20 of the summary suspension to the PERMIT
HOLDER or PERSON IN CHARGE, without prior
warning, notice of a hearing, or a hearing.
8-804.30 Contents of the Notice.
A summary suspension notice shall state:
(A) That the FOOD ESTABLISHMENT PERMIT is
immediately suspended and that all FOOD operations
66a

shall immediately cease;
(B) The reasons for summary suspension with
reference to the provisions of this Code that are in
violation;
(C) The name and address of the REGULATORY
AUTHORITY representative to whom a written
request for reinspection may be made and who may
certify that reasons for the suspension are eliminated;
and
(D) That the PERMIT HOLDER may request an
appeal hearing by submitting a timely request as
specified in §§ 8-805.10 and 8-805.20.
8-804.40 Time Frame for Reinspection.
After receiving a written request from the PERMIT
HOLDER stating that the conditions cited in the
summary suspension order no longer exist, the
REGULATORY AUTHORITY shall conduct a
reinspection of the FOOD ESTABLISHMENT for
which the PERMIT was summarily suspended within
2 business days, which means 2 days during which the
REGULATORY AUTHORITY'S office is open to the
public.
8-804.50 Term of Suspension, Reinstatement of
Permit.
(A) A summary suspension shall remain in effect until
the conditions cited in the notice of suspension no
67a

longer exist and their elimination has been confirmed
by the REGULATORY AUTHORITY through
reinspection and other means as appropriate.
(B) The suspended PERMIT shall
immediately if the REGULATORY
determines that the public health
nuisance no longer exists. A notice of
shall be provided to the PERMIT
PERSON IN CHARGE.

be reinstated
AUTHORITY
HAZARD or
reinstatement
HOLDER or

Hearings Administration
8-805.10 Response to Notice of Hearing or
Request for Hearing, Basis and Time Frame.
(Note: Adoption of this section provides the basis
for ¶¶ 8-303.30(C) and 8-501.30(C). ¶¶ 8-805.10(C)
and (D) would be cited there.)
(A) A PERSON who receives a notice of hearing for an
administrative remedy as specified in Part 8-7, § 8801.10, or ¶ 8-805.30(A) and elects to respond to the
notice shall file a response to notice as specified in § 8805.20 within 7 calendar days after service.
(B) A PERMIT applicant may request a hearing
regarding the disposition of an application for a new or
revised PERMIT if the REGULATORY AUTHORITY
does not issue or deny the PERMIT within the time
frame specified in LAW.
(C) A PERMIT HOLDER may request a hearing to
address concerns about the REGULATORY
68a

AUTHORITY'S denial of application for a PERMIT or
request for a VARIANCE, or compliance actions,
except that a hearing request does not stay the
REGULATORY AUTHORITY'S restriction or
exclusion of EMPLOYEES specified in §§ 8-501.10 - 8501.40, a hold order specified in § 8-803.10, or the
imposition of a summary suspension specified in § 8804.10.
(D) A PERSON desiring a hearing in response to a
denial of an application for PERMIT or an adverse
administrative determination shall submit a hearing
request to the REGULATORY AUTHORITY within 10
calendar days of the date of the denial, inspection, or
compliance action, unless the REGULATORY
AUTHORITY specifies in certain situations that the
request shall be submitted within a shorter period of
time.
8-805.20 Response to a Notice of Hearing or
Request for Hearing, Required Form and
Contents.
A response to a hearing notice or a request for hearing
as specified in § 8-805.10 shall be in written form and
contain the following:
(A) If a response to notice of hearing,
fact;

(1) An admission or denial of each allegation of
(2) A statement as to whether the respondent
69a

waives the right to a hearing; and may also contain
(3) A statement of defense, mitigation, or
explanation concerning any allegation of fact; and
(4) A request to the REGULATORY
AUTHORITY for a settlement of the proceeding by
consent agreement, if the REGULATORY
AUTHORITY will provide this opportunity.
(B) If a request for hearing,
(1) A statement of the issue of fact specified in
¶ 8-805.30(B) for which the hearing is requested; and
(2) A statement of defense, mitigation, denial, or
explanation concerning each allegation of fact.
(C) If either a response to notice of hearing or a
request for a hearing,
(1) A statement indicating whether the presence
of witnesses for the REGULATORY AUTHORITY is
required; and
(2) The name and address of the respondent's or
requester's legal counsel, if any.
8-1105.30 Provided Upon Request.
The REGULATORY AUTHORITY shall hold hearings
according to LAW and the provisions of this Code:

70a

(A) As determined necessary by LAW or the
REGULATORY AUTHORITY to accomplish the
purpose and Intent of this Code specified in § 8-101.10;
and
(B) As requested by a PERMIT applicant or a PERMIT
HOLDER if:
(1) Requested as specified in § 8-805.10, and
(2) The request demonstrates that there is a
genuine and material issue of fact that justifies that a
hearing be held.
8-1105.40 Provided In Accordance with Law.
Hearings shall be conducted according to LAW,
administrative procedures, and this Code.
8-805.50 Timeliness, Appeal Proceeding Within 5
Business Days, Other Proceeding Within 30
Calendar Days.
(A) The REGULATORY AUTHORITY shall afford a
hearing:
(1) Except as provided in ¶ (B) of this section,
within 5 business days after receiving a written
request for an appeal hearing from:
(a) A PERSON who is EXCLUDED by the
REGULATORY AUTHORITY from working in
a FOOD ESTABLISHMENT as specified in §§71a

8-501.10-8-501.40,
(b) A PERMIT HOLDER or PERSON whose
FOOD is subject to a hold order as specified in
Subpart 8-803, or
(c) A PERMIT HOLDER whose PERMIT is
summarily suspended as specified in Subpart 8804; and
(2) Within 30 calendar days but no earlier than
7 calendar days after the service of a hearing notice to
consider administrative remedies for other matters as
specified in ¶ 8-805.10(C) or for matters as determined
necessary by the REGULATORY AUTHORITY.
(B) A PERMIT HOLDER or PERSON who submits a
request for a hearing as specified in Subparagraphs
(A)(1)(a)-(c) of this section may waive the prompt
hearing in the written request to the REGULATORY
AUTHORITY.
8-805.60 Notice, Contents.
A notice of hearing shall contain the following
information:
(A) Time, date, and place of the hearing;
(B) Purpose of the hearing;
(C) Facts that constitute the basis or reason for the
hearing including specific details of violations or
72a

allegations;
(D) The rights of the respondent, including the right to
be represented by counsel and to present witnesses
and evidence on the respondent's behalf as specified in
§ 8-807.10;
(E) At the REGULATORY AUTHORITY'S discretion,
the procedure for the respondent to request an offer
from the REGULATORY AUTHORITY to settle the
matter;
(F) The consequences of falling to appear at the
hearing;
(G) The maximum sanctions or penalties as specified
in ¶¶ 8-806.40(B)-(D) that may result from the hearing
if the hearing concerns a proposed administrative
remedy and If the facts are found to be as alleged;
(H) If the hearing concerns a proposed administrative
remedy, a statement specifying the form and time
frame for response as specified in § 8-805.10;
(I) Notification that the written response shall include
the information specified in § 8-805.20; and
(J) The name and address of the PERSON to whom
such written response shall be addressed.
8-805.70 Proceeding
Notification.

73a

Commences

Upon

A hearing proceeding commences at the time the
REGULATORY AUTHORITY notifies the respondent
of the hearing proceeding.
8-805.80 Procedure, Expeditious and Impartial.
Hearings shall be conducted in an expeditious and
impartial manner.
8-805.90 Confidential.
(A) Hearings or portions of hearings may be closed to
the public:
(1) If compelling circumstances, such as the
need to discuss in the hearing a PERSON'S medical
condition or a FOOD ESTABLISHMENT'S trade
secrets, indicate that It would be prudent; and
LAW.

(2) According to LAW, such as an open meetings

(B) A party to a hearing shall maintain confidentiality
of discussions that warrant closing the hearing to the
public.
8-805.100 Record of Proceeding.
A complete record of a hearing shall be prepared under
the direction of the PERSON conducting the hearing
and maintained as part of the REGULATORY
AUTHORITY'S records for the FOOD
ESTABLISHMENT, Except as required by LAW, a
74a

verbatim transcript of the hearing need not be
prepared.
Hearing Officer, Purpose Qualifications,
Appointment, and Powers
8-806.10 Appointment by Regulatory Authority
and Purpose.
The REGULATORY AUTHORITY may appoint a
PERSON such as an adjudicator, administrative LAW
Judge, or examiner, hereinafter referred to as a
hearing officer, who presides over a proceeding
initiated by the REGULATORY AUTHORITY or by a
PERSON contesting an action of the REGULATORY
AUTHORITY, to perform one or more of the following:
(A) Hear the facts presented by an applicant or a
PERMIT HOLDER;
(B) Make a decision or recommendation concerning
administrative remedies to achieve compliance with
this Code; or
(C) Address other concerns or allegations appropriately
raised according to LAW, in the matter before the
hearing officer.
8-806.20 Qualifications. A hearing officer shall be
knowledgeable of the provisions of this chapter and the
LAW as they relate to hearings, and be:
(A) A REGULATORY AUTHORITY representative
other than the PERSON who inspects the FOOD
75a

ESTABLISHMENT or who has any other role in
making the decision that is being contested; or
(B) An individual who is not employed by the
REGULATORY AUTHORITY.
8-806.30 Powers, Administration of Hearings.
(A) A hearing officer shall have the following powers in
a hearing in which the hearing officer presides:
(1) Setting and conducting the course of a
hearing requested in accordance with or authorized by
this Code,
(2) Issuing subpoenas in the name of the
REGULATORY AUTHORITY at the request of a party
to a hearing, administering oaths and affirmations,
examining witnesses, receiving evidence,
(3) Approving a consent agreement on the issues
involved in the hearing entered into by the
REGULATORY AUTHORITY and the respondent
after the respondent receives a hearing notice,
(4) Sustaining, modifying, rescinding, or
vacating an order or directive of the REGULATORY
AUTHORITY in an appeal hearing proceeding, and if
the order or directive is sustained, ordering
appropriate measures to execute the REGULATORY
AUTHORITY'S order or directive; and
(B) Unless a party appeals to the head of the
76a

REGULATORY AUTHORITY within 15 days of the
hearing or a lesser number of days specified by the
hearing officer:
(1) Rendering a binding decision and final order
in a proceeding after conducting a hearing, if the
respondent has not waived the right to a hearing, and
(2) Then notifying the respondent of the decision
and the order which contains the findings and
conclusions of LAW.
8-806.40 Powers, Administrative Remedies.
The hearing officer shall have the following powers in
a hearing proceeding concerning an administrative
remedy specified in §§ 8-801.10 and 8-805.30:
(A) Issuing orders to abate or correct violations of this
Code and establishing a schedule for the abatement or
correction of violations;
(B) Making a finding of fact regarding the occurrence
of each violation and assessing, levying, and ordering
a reasonable civil penalty, according to LAW and not
to exceed the amount specified in ¶ 8-813.10(B) for
each violation of this Code that is alleged and found to
be committed, and calculated based on each day a
violation occurs as specified in ¶ 8-813.10(C);
(C) Suspending, revoking, modifying, or imposing
reasonable restrictions or conditions on a PERMIT to
operate a FOOD ESTABLISHMENT, or ordering the
77a

closure of a FOOD ESTABLISHMENT that is operated
without a valid PERMIT as required under § 8-301. 11;
(D) Making a finding of fact regarding the occurrence
of each violation of the REGULATORY AUTHORITY'S
or hearing officer's LAWful order issued in accordance
with this Code and assessing, levying, and ordering a
reasonable civil penalty, in accordance with LAW and
not to exceed the amount specified in ¶ 8-813.10(B) for
each violation of this Code that is alleged and found to
be committed, and calculated based on each day a
violation occurs as specified in ¶ 8-813.10(C);
(E) Deferring or suspending the imposition of a
decision or execution of an order, and imposing a
probationary period, upon the condition that the
respondent comply with the hearing officer's
reasonable terms and conditions; (F) Dismissing the
appeal if the matter is settled between the
REGULATORY AUTHORITY and the respondent
after a hearing notice is served;
(G) Ordering reinspection of a FOOD
ESTABLISHMENT to determine compliance with a
hearing officer's order;
(H) Suspending or ordering the payment of a fee
established by the REGULATORY AUTHORITY for a
reinspection that is required to determine compliance
and for the reinstatement of a PERMIT after
suspension;
(I) Retaining and exercising jurisdiction for a specific
78a

period of lime not to exceed 90 calendar days after the
hearing officer's decision and final order is issued, over
a respondent who receives a hearing notice; and
(J) Modifying or setting aside an order by rehearing
upon the hearing officer's own motion, the motion of
the REGULATORY AUTHORITY, or the motion of the
respondent.
Rights of Parties and Evidence
8-807.10 Rights of Parties.
Parties to a hearing may be represented by counsel,
examine and cross examine witnesses, and present
evidence in support of their position.
8-807.20 Evidence to be Presented by the
Regulatory Authority.
The REGULATORY AUTHORITY shall present at the
hearing its evidence, orders, directives, and reports
related to the proposed or appealed administrative
remedy.
8-807.30 Evidence to be Excluded.
Evidence shall be EXCLUDED:
(A) If it is irrelevant, immaterial, unduly repetitious,
or excludable on constitutional or statutory grounds or
on the basis of evidentiary privilege recognized by the
state's courts; or

79a

(B) Otherwise according to LAW.
8-807.40 Testimony under Oath.
Testimony of parties and witnesses shall be made
under oath or affirmation administered by a duly
authorized official.
8-807.50 Written Evidence.
Written evidence may be received if it will expedite the
hearing without substantial prejudice to a party's
interests.
8-807.60 Documentary Evidence.
Documentary evidence may be received In the form of
a copy or excerpt.
Settlement
8-808.10 Authorization.
The REGULATORY AUTHORITY may settle a case
after a notice of hearing is served by providing a
respondent with an opportunity to request a
settlement before a hearing commences on the matter
and by entering into a consent agreement with the
respondent.
8-808.20 Respondent Acceptance of Consent
Agreement is Waiver of Right to Appeal.
Respondents accepting a consent agreement waive
80a

their right to a hearing on the matter.
Judicial
8-809.10 Gaining
Records.

Access

to

Premises

and

Inspection Orders
(Note: Adoption of this section provides the basis
for Subparagraph 8-402.20(A)(3) and§ 8-402.40
and would be cited there.)
The REGULATORY AUTHORITY may seek access for
one or more of the following purposes, according to
LAW for gaining access:
(A) If admission to the PREMISES of a FOOD
ESTABLISHMENT is denied or other circumstances
exist that would justify an Inspection order under
LAW, to make an inspection Including taking
photographs;
(B) To examine and sample the FOOD; and
(C) To examine the records on the PREMISES relating
to FOOD purchased, received, or used by the FOOD
ESTABLISHMENT.
8-809.20 Contents of Court Petition.
In the absence of a specific set of requirements
established by LAW, in its petition to the court to
compel access the REGULATORY AUTHORITY shall:

81a

(A) Describe in detail the PREMISES, FOOD, or
records on or to which access was denied;
(B) Detail the legal authority to regulate and to have
access for a specific purpose on or to the PREMISES,
FOOD, or records where access was denied; and
(C) Provide information that the FOOD
ESTABLISHMENT possesses a valid PERMIT from
the REGULATORY AUTHORITY and that it applies
to the PREMISES where access was denied; or
(D) Provide information that a PERSON is known to
be or suspected of operating a FOOD
ESTABLISHMENT without possessing a valid
PERMIT as specified In LAW and under this Code.
8-809.30 Sworn Statement of Denied Access.
The REGULATORY AUTHORITY shall demonstrate
to the court by affidavit, sworn testimony, or both that:
(A) Access on or to the PREMISES, FOOD, or records
was denied after the REGULATORY AUTHORITY
acted as specified in §§ 8-402.20 and 8-402.30; or
(B) There is reason to believe that a FOOD
ESTABLISHMENT is being operated on the
PREMISES and that access was denied or is sought
under a REGULATORY AUTHORITY'S reasonable
administrative plan to enforce the provisions of this
Code.

82a

8-809.40 Contents of an Order.
Upon petition of the REGULATORY AUTHORITY, the
court may issue an inspection order that:
(A) Includes the information specified in W 8-802.20(A)
- (C); and
(B) Orders or authorizes any other identified agencies
and persons including LAW enforcement agencies to
execute, or assist with the execution of, the order.
8-809.50 Optional Contents of an Order.
Upon petition of the REGULATORY AUTHORITY, the
court may further issue an inspection order that:
(A) Provides a maximum time limit for the order's
execution;
(B) Authorizes LAW enforcement officers who assist in
the order's execution to use necessary force against
PERSONS or property to execute the order; and
(C) Requires that the agencies or PERSONS ordered or
authorized to execute the order shall report to the
court the date and time of the order's execution and
the findings reached by the inspection, examination, or
sampling conducted under the order.
Means of Instituting Judicial Enforcement
Proceedings
8-810.10 Institution of Proceedings.
83a

(A) Proceedings to enforce this Code may be instituted
by the REGULATORY AUTHORITY according to LAW
by issuing a citation or summons, by filing a
misdemeanor complaint affidavit and request for a
warrant of arrest with the court of competent
jurisdiction, or by referring the complaint to a grand
jury for indictment, as appropriate.
(B) The REGULATORY AUTHORITY may designate
a representative to issue summons or citations or sign
warrants on behalf of the agency.
Criminal Proceedings
8-811.10 Authorities,
Sentences.

Methods,

Fines,

and

(A) The REGULATORY AUTHORITY may seek to
enforce the provisions of this Code and its orders by
instituting criminal proceedings as provided in LAW
against the PERMIT HOLDER or other PERSONS
who violate its provisions.
(B) A PERSON who violates a provision of this Code
shall be guilty of a misdemeanor, punishable by:
(1) A fine of not more than (designate amount)
dollars, or by imprisonment not exceeding 1 year, or
both the fine and imprisonment; or
(2) If the PERSON has been convicted once of
violating this Code or if there is an intent to defraud or
mislead, a fine not exceeding (designate amount) or
imprisonment not exceeding (designate time) year(s) or
84a

both.
(C) Each day on which a violation occurs is a separate
violation under this section.
Injunctive Proceeding
8-812.10 Petitions for Injunction.
The REGULATORY AUTHORITY may, according to
LAW, petition a court of competent Jurisdiction for
temporary or permanent injunctive relief to achieve
compliance with the provisions of this Code or its
orders.
Civil Proceedings
8-813.10 Petitions, Penalties, and Continuing
Violations.
(A) The REGULATORY AUTHORITY may petition a
court of competent jurisdiction to enforce the
provisions of this Code or its administrative orders and
according to LAW collect penalties and fees for
violations.
(B) In addition to any criminal fines and sentences
imposed as specified in § 8-811.10, or to being enjoined
as specified in § 8-812.10, a PERSON who violates a
provision of this Code, any rule or regulation adopted
in accordance with LAW related to FOOD
ESTABLISHMENTS within the scope of this Code, or
to any term, condition, or limitation of a PERMIT
issued as specified in §§ 8-303.10 and 8-303.20 is
subject to a civil penalty not exceeding (designate
85a

amount).
(C) Each day on which a violation occurs is a separate
violation under this section.

86a

APPENDIX E
Jackson County Board of Health
July 16, 2002
Attendees:
Board
Judith Miller, Chair
Keith King
Margaret Ritchie
James McCoy
Marsha Geyer

Staff
Other
Dr. John Snyder
Susan Hosaflook
Wendy Barnette
Deborah Templin
Jonathan Graziani

Judith Miller, Chair, opened the meeting.
Minutes
Margaret Ritchie made a motion that we accept the
minutes as presented. Marsha Geyer seconded the
motion. Motion carried.
Public Health Concerns
None
Physician/Director Report
Dr. I. John Snyder was approved as Interim Health
Officer by James McCoy, Marsha Geyer, and Judy
Miller via telephone pole of Board Members. Salary
will be determined in Executive Session. Dr. Snyder
was introduced to everyone in attendance.

87a

Administrative Report
Report Attached.
Susan Hosaflook recommended that the Jackson
County Health Department join with other counties in
Region II to work on the required Threat Preparedness
Plan. This would cost the Department approximately
$3000.00. Marsha Geyer made a motion that we join
with the named counties. Margaret Ritchie seconded
the motion. Motion carried.
Clinic
Report Attached.
Home Health
Report Attached.
Debbie gave an overview to the Board of Home Health.
Environmental Health
Report Attached.
Financial
Report Attached.
Old Business
By-Laws – Judy Miller reviewed the By-Laws with
Board A few corrections were noted to be made.
Margaret Ritchie made a motion that the By-Laws be
accepted. Keith King seconded the motion. Motion
carried. Judy stated that since they were already typed
on her computer, she would revise and make copies.
Posting of Restaurant Inspections – Jonathan
88a

Graziani requested that the Board consider posting of
restaurant inspections in the local newspaper. He did
state that Paul Saunders was opposed to this. There
was discussion of the Board concerning advising
businesses in advance and possibly doing a news
release before it went into plan. Marsha Geyer
requested that a letter be hand delivered or mailed
certified to each restaurants, schools, etc. Keith King
made a motion that all restaurant scores be published
in the paper as of January 1, 2003 and all businesses
be notified prior to then. Marsha Geyer seconded the
motion. Motion Carried.
Hiring Nurse – Susan Hosaflook stated that she had
been tied up working on the Threat Preparedness Plan
and Clinic needs to hire a nurse part-time. Home
Health is also short staff and would like to hire a
nurse part time. Susan the Board should look at hiring
a full time nurse to be split between the programs or
if they chose, an Administrator. She felt they would
have more luck recruiting and retaining this position
if it were full-time.. Margaret Ritchie asked Susan how
she felt hiring an Administrator. Susan was concerned
that the person would not have a public health
background which is very much needed. Issue was
tabled until the Executive Session.
New Business
Home Health On-Call Rate – On 28, 2002, the Board
Chairman conducted a telephone pole of the members
to vote on raising the on-call hourly rate to $25.00 per
hour. Marsha Geyer, Margaret Ritchie, Keith King and
89a

Judith Miller approved the increase.
Home Health Advertising - Debbie Templin told the
Board that and advertisement was placed in the Rite
Aide brochure at a cost of $520 per year. This was
available to anyone at no charge.
Fees to Service (Temporary Food Stands) – Jonathan
Graziani proposed that a fee be established and
charged for temporary food stands in order to cover
expenses of inspection. Other counties charge a fee and
some vendors were already asking what we charged in
this county. James McCoy stated that with the budget
we have, he thought we should drop fees all together.
Marsha inquired
* * *

90a

APPENDIX F
IN THE CIRCUIT COURT OF JACKSON
COUNTY, WEST VIRGINIA
PANCHO'S LLC,
v.

Plaintiff,
Civil Action No. 13-C-98

JAMES T. HUGHES, MARGARET RITCHIE,
JOYCE ROBINSON, TERRI RANSON,
JAMES McCOY, MARSHA GEYER, KEITH KING,
JUDITH MILLER, in their official and Individual
capacities as members of the JACKSON COUNTY
BOARD OF HEALTH, JONATHAN GRAZIANI,
Inspector for the Jackson County Health
Department, SUSAN HOSAFLOOK,
Administrator of the Jackson County Health
Department, JACKSON COUNTY BOARD OF
HEALTH, by corporate and politic, John Doe #1,
in individual and official capacity, and John Doe #2, in
individual and official capacity.
Defendants.
PLAINTIFF'S SECOND REQUEST
FOR ADMISSIONS
TO:

All Defendants
c/o Jeffery W. Lilly, Esquire
91a

Rose, Padden & Petty, L.C.
Post Office Box 1307
612 Wesbanco Building
Fairmont, West Virginia 26555-1307
Comes now Plaintiff, PANCHO'S LLC,
(hereinafter "Plaintiff"), through undersigned counsel,
pursuant to Rule 36 of the West Virginia Rules of Civil
Procedure, and request Defendants to make the
following admissions for the purpose of this action only
and subject to all pertinent objections to admissibility
which may be interposed at trial. These answers are
hereby requested to be made within thirty (30) days
from the receipt of this instrument or such
unanswered requests shall be deemed admitted. For
each response indicating a denial, please explain why
denied and attach supporting documentation where
applicable.
1. Admit that the copy of minutes of the
Jackson. County Board of Health as attached hereto as
Exhibit 1 are a true, complete and accurate.
RESPONSE:

Admit:_____ Deny:______

If denied please state the reasons for your denial and
attach copies of all documents in support thereof.
2. Admit that the minutes aforesaid sets forth
the policy of the Jackson County Health Department
regarding publication of restaurant inspections by
health department sanitarians. (See 30(b)(6)
deposition Administrator Hosaflook pp. 25 in. 8-12.)
92a

RESPONSE:

Admit:_____ Deny:______

If denied please state the reasons for your denial and
attach copies of all documents in support thereof.
3. Admit that the policy set forth in exhibit 1
regarding publication or restaurant inspections was
not published as a rule as provided by WV Code § 16-211(b)(3).
RESPONSE:

Admit:_____ Deny:______

If denied please state the reasons for your denial and
attach copies of all documents in support thereof.
4. Admit that the policy of publication was
requested by then Sanitarian Graziani to post
inspections in the newspaper. (See 30(b)(6) deposition
Administrator Hosaflook pp. 23, in 3-5; deposition
Chief Sanitarian Graziani pp.72, in.4-13; pp.72 in. 46.)
RESPONSE:

Admit:_____ Deny:______

If denied please state the reasons for your denial and
attach copies of all documents in support thereof.
5. Admit that the policy of publication of
restaurant inspection results as provided in the said
minutes makes no provision, on its face, for the
opportunity for a hearing for a restaurant operator
prior to publication of the inspection results. (See
30(b)(6) deposition Administrator Hosaflook pp. 38, in
93a

10-24; pp.39, in. 1.) [Italics added to distinguish
request 6 below.]
RESPONSE:

Admit:_____ Deny:______

If denied please state the reasons for your denial and
attach copies of all documents in support thereof.
6. Admit that the policy of publication of
restaurant inspection results as provided in the said
minutes makes no provision, on its face, for notice of
an opportunity for a hearing for a restaurant operator
prior to publication of the inspection results. (See
30(b)(6) deposition Administrator Hosaflook pp. 38, in
10-24; pp.39, in. 1.) [Italics added to distinguish
request 5 above.]
RESPONSE:

Admit:_____ Deny:______

If denied please state the reasons for your denial and
attach copies of all documents in support thereof.
7. Admit that the Food Code of 2005, as applied
by sanitarians of the Jackson County Health
Department In the year 2011, governed inspections of
restaurants. (See 30(b)(6) deposition of Chief
Sanitarian Graziani pp. 89, in. 10; 30(b)(6) deposition
of Administrator Hosaflook pp. 60, in. 18-19.)
RESPONSE:

Admit:_____ Deny:______

If denied please state the reasons for your denial and
attach copies of all documents in support thereof.
94a

8. Admit that a license to operate a restaurant
is obtained from the Jackson County Heath
Department (See 30(b)(6) deposition of Chief
Sanitarian Graziani pp. 118, in. 2-5.)
RESPONSE:

Admit:_____ Deny:______

If denied please state the reasons for your denial and
attach copies of all documents in support thereof.
9. Admit that the manner of enforcing Food
Code inspections prior to the adoption of the
publications policy in 2002 was that the Inspection
document was held at the offices of the Department for
public inspection. (See30(b)(6) deposition of Chief
Sanitarian Graziani pp. 49-51.)
RESPONSE:

Admit:_____ Deny:______

If denied please state the reasons for your denial and
attach copies of all documents in support thereof.
10. Admit that the Chief Sanitarian believes
that the Board of Health is their own power and
authority, and the constitution does not apply to
publications. (Chief Sanitarian Graziani pp.79, in. 1623.)
RESPONSE:

Admit:_____ Deny:______

If denied please state the reasons for your denial and
attach copies of all documents in support thereof.

95a

11. The Administrator believes it is neither fair
nor necessary for a restaurant operator to have notice
of an opportunity to contest a Food Code violation
before an operator is penalized. (Administrator
Hosaflook pp.59-80.)
RESPONSE:

Admit:_____ Deny:______

If denied please state the reasons for your denial and
attach copies of all documents in support thereof.
12. No written notice of any right to an appeal
hearing is served upon the restaurant operator. (See
30(b)(8) deposition of Chief Sanitarian Graziani pp. 90,
in. 9-24.)
RESPONSE:

Admit:_____ Deny:______

If denied please state the reasons for your denial and
attach copies of all documents in support thereof.
13. Admit that the Food Code of 2005, provides
for the preservation of Constitutional rights as
guaranteed by the Fourteenth Amendment to the
United States Constitution. (See 30(b)(6) deposition of
Humphries exhibit 10.)
RESPONSE:

Admit:_____ Deny:______

If denied please state the reasons for your denial and
attach copies of all documents in support thereof.
14. Admit that the Food Code of 2005, aforesaid,
96a

specifically provides for prior notice and the
opportunity for a hearing before the imposition of
sanctions. (Id.)
RESPONSE:

Admit:_____ Deny:______

If denied please state the reasons for your denial and
attach copies of all documents in support thereof. .
15. Admit that neither the 2005 Food Code nor
state law provide for publication of restaurant
inspection violations. (Stipulation of defense counsel;
see 30(b)(6) deposition Humphries pp.54-55.)
RESPONSE:

Admit:_____ Deny:______

If denied please state the reasons for your denial and
attach copies of all documents in support thereof.
16. Admit that, as applied, the plan of correction
of restaurant operators regarding inspections
violations includes the publication of inspection
results. (See 30(b)(6) deposition of Humphries pp. 30,
in. 12-23; 30(b)(6); pp.7, in 14).
RESPONSE:

Admit:_____ Deny:______

If denied please state the reasons for your denial and
attach copies of all documents in support thereof.
17. Admit that there is no way to challenge a
sanitarian's findings after publication. (30(b)(6)
deposition of Chief Sanitarian Graziani pp.152, in. 1997a

24, to pp.153, in 1-6.)
RESPONSE:

Admit:_____ Deny:______

If denied please state the reasons for your denial and
attach copies of all documents in support thereof.
18. Admit that the point of citing an operator for
Food Code violations by a sanitarian is the hope of
behavior and to protect the public health. That the
inspection:
a. constitutes only "a slice of life;"
b. many violations cited are correctable
instantly;
c. correctable violations are recorded.
(See 30(b)(8) deposition of Chief Sanitarian Graziani
pp.108, in. 11-22; pp.105, in 1-20.)
RESPONSE:

Admit:_____ Deny:______

If denied please state the reasons for your denial and
attach copies of all documents in support thereof.
19. Admit that the function of publication is to
inform the public of violations by restaurants. (See
30(b)(6) deposition Administrator Hosaflook pp. 25,
in.12-14; (30(b)(6) deposition Humphries pp.20, 22-24.)
RESPONSE:

Admit:_____ Deny:______
98a

If denied please state the reasons for your denial and
attach copies of all documents in support thereof.
20. Admit that the publication policy, as applied,
of inspection results by the Jackson County Health
Department is intended to be prominent. (See 30(b)(6)
30(b)(6) deposition of Humphries pp. 24, in 10-24; pp.
25, in. 4-21.) Further the publication of August 2011
was intended to be prominently displayed. (Humphries
pp.27, in.10-19.)
RESPONSE:

Admit:_____ Deny:______

If denied please state the reasons for your denial and
attach copies of all documents in support thereof.
21. Admit that the person-in-charge-ofpublications was aware both initial routine inspection
and follow-up inspection are to be published. (See
30(b)(6) deposition of Humphries pp. 38, in. 1-6.)
RESPONSE:

Admit:_____ Deny:______

If denied please state the reasons for your denial and
attach copies of all documents in support thereof.
22. Admit that the publication of negative
restaurant inspection results is recognized by the
Chief Sanitarian, as well as the Administrator, of the
Jackson County Health Department to have adverse
impact upon a restaurant's reputation, hence business
interests. (See 30(b)(6) deposition Chief Sanitarian
Graziani pp.66, in. 8-24; pp. 67, in. 1-10.; 30(b)(6)
99a

deposition Administrator Hosaflook pp. 59, in. 8-11;
pp. 63, in. 8-14.)
RESPONSE:

Admit:_____ Deny:______

If denied please state the reasons for your denial and
attach copies of all documents in support thereof.
23. The person-in-charge-of-publications does
not agree that publications may have an adverse
affect. (See 30(b)(6) deposition Humphries pp. 36, in
21-24, pp. 37, in. 1.)
RESPONSE:

Admit:_____ Deny:______

If denied please state the reasons for your denial and
attach copies of all documents in support thereof.
24. Admit that the 2005 Food Code makes no
provision for publication of restaurant inspection
results. (See deposition 30(b)(6) deposition Chief
Sanitarian Graziani pp.77, in 14-24; pp.78, in 1-20;
30(b)(6) deposition Humphries pp. 54, in 18-24, pp. 55,
in. 1-2; Stipulation of defense counsel December 2015)
RESPONSE:

Admit:_____ Deny:______

If denied please state the reasons for your denial and
attach copies of all documents in support thereof.
25. Admit that no regulatory authority, code, or
statute of the State of West Virginia provides for
publication of restaurant inspection results. (Id.)
100a

RESPONSE:

Admit:_____ Deny:______

If denied please state the reasons for your denial and
attach copies of all documents in support thereof.
26. Admit that the erstwhile Chief Sanitarian of
the Jackson County Health Department, a Mr.
Saunders, dissented concerning the adoption of the
aforementioned publication policy. (See exhibit 1;
30(b)(6) deposition Chief Sanitarian Graziani pp.72,
in16-22.)
RESPONSE:

Admit:_____ Deny:______

If denied please state the reasons for your denial and
attach copies of all documents in support thereof.
27. Admit that the alternative enforcement
method of restaurant inspection results available to
the Jackson County Health Department, rather than
publication, is through magistrate court. (See 30(b)(6)
deposition Chief Sanitarian Graziani, pp.56, in.22-24.)
RESPONSE:

Admit:_____ Deny:______

If denied please state the reasons for your denial and
attach copies of all documents in support thereof.
28. Admit that it is easier for the Jackson
County Health Department to enforce restaurant
inspection results by publication rather than
magistrate proceedings. (See 30(b)(6) deposition Chief
Sanitarian Graziani pp. 5-13.)
101a

RESPONSE:

Admit:_____ Deny:______

If denied please state the reasons for your denial and
attach copies of all documents in support thereof.
29. Admit that it is the position of the Jackson
County Health Department that all restaurant
inspection scores are to be published. (See 30(b)(6)
deposition Administrator Hosaflook pp.61, in. 9-10;
30(b)(8) deposition Chief Sanitarian Graziani pp.162,
in.18-19.)
RESPONSE:

Admit:_____ Deny:______

If denied please state the reasons for your denial and
attach copies of all documents in support thereof.
30. Admit that it is the position of the Jackson
County Health Department that the failure to correct
an erroneous publication of inspection scores is outside
the scope of its duties; fair to correct; reckless not to
correct; the behavior was wrong; and would not be in
good faith to not correct. (See 30(b)(6) deposition
Administrator Hosaflook pp.73-74; pp. 86, in. 2-10
30(b)(6) deposition Chief Sanitarian Graziani pp. 142,
in. 5-24; pp.143, in. 1-10.)
RESPONSE:

Admit:_____ Deny:______

If denied please state the reasons for your denial and
attach copies of all documents in support thereof.
31. Admit that it is the position of the Jackson
102a

County Health Department that a correct publication
of inspections is important to the public as well as the
restaurant operator; that it is not a hard thing to be
accurate; correction of errors promptly is not difficult
to do; the fair thing to do; least harmful to the public
and operator; there is a duty to correct. (See 30(b)(6)
deposition Humphries pp. 19, in. 13-24; pp.20, in. 114.)
RESPONSE:

Admit:_____ Deny:______

If denied please state the reasons for your denial and
attach copies of all documents in support thereof. .
32. Admit that the August 2011 publication of
restaurant inspections carried out in April and July
2011 was erroneous in that it did not post reinspections (followup) as well as initial (routine)
inspections. (See 30(b)(6) deposition Humphries pp. 31,
in. 9-24; pp.32, in. 1-24; pp.34, in. 13-18.)
RESPONSE:

Admit:_____ Deny:______

If denied please state the reasons for your denial and
attach copies of all documents in support thereof.
33. Admit that the August 2011 publication of
restaurant inspection scores reflect only the initial
(routine) inspection score but did not include the reinspection score (follow-up) of plaintiff Panchos, while
the re-inspection (follow-up) score of Cozumels was the
only score posted and the initial routine score was
omitted. (Compare 30(b)(6) deposition Humphries
103a

Exhibit 1.)
RESPONSE:

Admit:_____ Deny:______

If denied please state the reasons for your denial and
attach copies of all documents in support thereof.
34. Admit that the plan of correction of
restaurant Food Code violations by the Jackson
County Health Department is for the follow-up
inspection to show fewer violations than the initial
inspection, and the follow-up is always better. (See
30(b)(6) deposition Humphries pp. 36, in.13-19;
30(b)(6) deposition Chief Sanitarian Graziani pp.153,
in.11-17.)
RESPONSE: Admit:___ Deny: __ _ If denied please
state the reasons for your denial and attach copies of
all documents in support thereof.
35. Admit that in the instance of the follow-up
inspection of Panchos on April 16, 2011, there was
dramatic improvement, considered to be good
performance, as well as good faith by the operator,
which was not published, should have been published,
and was outside the scope of duties, bad faith, as well
as reckless not to have been corrected according to the
Chief Sanitarian. (See 30(b)(6) deposition Chief
Sanitarian Graziani pp.136, in.1-3; pp. 159, in.11-13;
pp.160, in. 16-20; pp, 162, in.16-24; pp.163, in.1-7;
Humphries Deposition Exhibit 1.)
RESPONSE:

Admit:_____ Deny:______
104a

If denied please state the reasons for your denial and
attach copies of all documents in support thereof.
36. Admit that on September 7, 2011 a
representative of plaintiff notified an employee of the
Jackson County Health Department that the August
31st newspaper publication of April 2011 inspections
was erroneous; until then no department personnel
were aware of the error; on September 10, 2011, a
report in writing of the foregoing was made to
Administrator Hosaflook; that an attempted correction
was made September 13, 2011, however no mention
was made that the transmittal document intended it
to be a correction; and a second attempted correction
was made October 11, 2011. (See 30(b)(6) deposition
Humphries pp.39, in. 13-24; pp. 41, in.23-24; pp.42, in.
1; pp.47, in. 2-22.)
RESPONSE:

Admit:_____ Deny:______

If denied please state the reasons for your denial and
attach copies of all documents in support thereof.
37. Admit that no evidence of a newspaper
publication of a correction has been produced by
defendants; that the erroneous publication remained
on the Jackson County website until after the within
civil action was filed. (See 30(b)(6) deposition
Humphries pp.39, in. 13-24; pp. 41, in.23-24; pp.42, in.
1; pp.47, in. 2-22.)
RESPONSE:

Admit:_____ Deny:______

105a

If denied please state the reasons for your denial and
attach copies of all documents in support thereof.
38. Admit that no steps were taken by the
p er s on- i n - c h a r g e - o f - p u b l i c at i ons , nor t he
Administrator of the Jackson County Health
Department, to ensure correction of the erroneous
publication beyond October 2011. (See 30(b)(6)
deposition Humphries pp.48, in. 4-16.)
RESPONSE:

Admit:_____ Deny:______

If denied please state the reasons for your denial and
attach copies of all documents in support thereof.
39. Admit that the testimony of each witness
mentioned above pursuant to 30(b)(6) was intended to
be binding upon the defendant corporation and that
the witness understood same. (See 30(b)(6) deposition
Chief Sanitarian Graziani, pp.16, in.12-14;
Administrator Hosaflook pp. 9, in. 16-22; Humphries
pp. 7-9.)
RESPONSE:

Admit:_____ Deny:______

If denied please state the reasons for your denial and
attach copies of all documents in support thereof.
PANCHO'S LLC,
Plaintiff By Counsel.
HIGINBOTHAM & HIGINBOTHAM, PLLC

106a

__________________________
Forrest A. Bowen
(West Virginia State Bar ID # 7422)
George R. Higinbotham, Jr
(West Virginia State Bar ID # 1719)
132 Adams Street Suite 100
Post Office Box 567
Fairmont West Virginia 26554
(304) 366-2900

107a

IN THE CIRCUIT COURT OF JACKSON
COUNTY, WEST VIRGINIA
PANCHO'S LLC,
v.

Plaintiff,
Civil Action No. 13-C-98

JAMES T. HUGHES, MARGARET RITCHIE,
JOYCE ROBINSON, TERRI RANSON,
JAMES McCOY, MARSHA GEYER, KEITH KING,
JUDITH MILLER, in their official and Individual
capacities as members of the JACKSON COUNTY
BOARD OF HEALTH, JONATHAN GRAZIANI,
Inspector for the Jackson County Health
Department, SUSAN HOSAFLOOK,
Administrator of the Jackson County Health
Department, JACKSON COUNTY BOARD OF
HEALTH, by corporate and politic, John Doe #1,
in individual and official capacity, and John Doe #2, in
individual and official capacity.
Defendants.
CERTIFICATE OF SERVICE
I do hereby certify that a true copy of the
foregoing PLAINTIFF'S SECOND REQUEST FOR
ADMISSIONS" has been served upon counsel of
record, via United States mail, postage prepaid, on this
__ day of February 2016, as follows:

108a

Jeffrey Lilly, Esquire
Rose, Padden, Petty, Taylor & Lilly, LC
Post Office Box 1307
Fairmont, West Virginia 26555-1307
PANCHO'S LLC,
Plaintiff By Counsel.
HIGINBOTHAM & HIGINBOTHAM, PLLC
__________________________
Forrest A. Bowen
(West Virginia State Bar ID # 7422)
George R. Higinbotham, Jr
(West Virginia State Bar ID # 1719)
132 Adams Street Suite 100
Post Office Box 567
Fairmont West Virginia 26554
(304) 366-2900

109a

